<html>
<title> - THE IMPACT OF THE ANTHRAX VACCINE PROGRAM ON RESERVE AND NATIONAL GUARD UNITS</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]





THE IMPACT OF THE ANTHRAX VACCINE PROGRAM ON RESERVE AND NATIONAL GUARD 
                                 UNITS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                  VETERANS AFFAIRS, AND INTERNATIONAL
                               RELATIONS

                                 of the

                     COMMITTEE ON GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 29, 1999

                               __________

                           Serial No. 106-102

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                      U.S. Government Printing Office
63-501 cc                     Washington : 2000


                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH, Idaho                   (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
           David A. Kass, Deputy Counsel and Parliamentarian
                      Carla J. Martin, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

Subcommittee on National Security, Veterans Affairs, and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
ILEANA ROS-LEHTINEN, Florida         TOM LANTOS, California
JOHN M. McHUGH, New York             ROBERT E. WISE, Jr., West Virginia
JOHN L. MICA, Florida                JOHN F. TIERNEY, Massachusetts
DAVID M. McINTOSH, Indiana           THOMAS H. ALLEN, Maine
MARSHALL ``MARK'' SANFORD, South     EDOLPHUS TOWNS, New York
    Carolina                         BERNARD SANDERS, Vermont 
LEE TERRY, Nebraska                      (Independent)
JUDY BIGGERT, Illinois               JANICE D. SCHAKOWSKY, Illinois
HELEN CHENOWETH, Idaho

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Marcia Sayer, Professional Staff Member
                           Jason Chung, Clerk
                    David Rapallo, Minority Counsel
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on September 29, 1999...............................     1
Statement of:
    Cragin, Charles, Principal Deputy Assistant Secretary for 
      Reserve Affairs, Department of Defense; MG Paul A. Weaver, 
      Director, Air National Guard, Department of Defense; Col. 
      Frederick Gerber, Director, Health Care Operations, Office 
      of the Army Surgeon General, Department of Defense; and 
      Col. James A. Dougherty, Air Surgeon, National Guard 
      Bureau, Department of Defense..............................    79
    Heemstra, Lt. Col. Thomas, Indiana Air National Guard, 
      Erlanger, KY; Maj. Cheryl Hansen, Air Force Reserves, 
      Beaver, PA; Cap. David A. Panzera, New York Air National 
      Guard; and Tech. Sgt. William Mangieri, New York Air 
      National Guard, Hopewell Junction, NY......................    30
Letters, statements, et cetera, submitted for the record by:
    Blagojevich, Hon. Rod R., a Representative in Congress from 
      the State of Illinois, prepared statement of...............     7
    Cragin, Charles, Principal Deputy Assistant Secretary for 
      Reserve Affairs, Department of Defense:
        Letter dated November 2, 1999............................    95
        Prepared statement of....................................    85
    Gilman, Hon. Benjamin A., a Representative in Congress from 
      the State of New York, prepared statement of...............    27
    Hansen, Maj. Cheryl, Air Force Reserves, Beaver, PA, prepared 
      statement of...............................................    44
    Heemstra, Lt. Col. Thomas, Indiana Air National Guard, 
      Erlanger, KY, prepared statement of........................    34
    Mangieri, Tech. Sgt. William, New York Air National Guard, 
      Hopewell Junction, NY, prepared statement of...............    57
    Metcalf, Hon. Jack, a Representative in Congress from the 
      State of Washington, prepared statement of.................    21
    Panzera, Cap. David A., New York Air National Guard, prepared 
      statement of...............................................    50
    Schakowsky, Hon. Janice D., a Representative in Congress from 
      the State of Illinois, prepared statement of...............    24
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     4
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, information from a person who received 
      the anthrax vaccine........................................    11

 
THE IMPACT OF THE ANTHRAX VACCINE PROGRAM ON RESERVE AND NATIONAL GUARD 
                                 UNITS

                              ----------                              


                     WEDNESDAY, SEPTEMBER 29, 1999

                  House of Representatives,
       Subcommittee on National Security, Veterans 
              Affairs, and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:05 a.m., in 
room 2154, Rayburn House Office Building, the Hon. Christopher 
Shays (chairman of the subcommittee) presiding.
    Present: Representatives Shays, Souder, McHugh, Mica, 
Burton, Metcalf, Jones, Blagojevich, Schakowsky, and Thompson.
    Staff present: Lawrence Halloran, staff director and 
counsel; David Rapallo, minority counsel, and Earley Green, 
minority staff assistant.
    Mr. Shays. I would like to call this hearing to order. The 
Anthrax Vaccine Immunization Program, which we refer to as 
AVIP, has two serious problems. Highly trained, veteran members 
of Reserve components, Reserve and National Guard units, are 
opting to leave military service, citing unresolved questions 
about the safety, efficacy and necessity of the anthrax vaccine 
program. And for those who are taking the vaccine, recent 
tracking data from the Department of Defense [DOD] confirms the 
worst fears of those who doubted the Department's ability to 
keep accurate medical records and comply with the FDA-mandated 
inoculation schedule.
    How many are leaving? In some Air Guard units, attrition 
among pilots and technicians may be as high as 30 percent. But 
because phase I of the AVIP has reached only a small fraction 
of Reserve components, DOD appears unable, or unwilling, to 
discern a trend. So we asked the Department, and individual 
service members, to discuss the impact and implications of the 
AVIP to date on retention, readiness, and morale.
    Implementation of an effective system to track personnel 
who receive anthrax vaccinations was one of four conditions 
Defense Secretary Cohen placed on the controversial program. 
Why? Because the lack of critical recordkeeping during Desert 
Shield and Desert Storm all but destroyed trust in DOD medical 
programs. To this date, the paucity of data prevents research 
on the health of those who received vaccines, including 
anthrax, and other experimental drugs during the desert war.
    Accurate tracking is also essential because the FDA-
approved schedule of six shots over 18 months is the only 
regimen shown to protect humans against anthrax. According to 
DOD policy, ``Although the effect of specific deviations from 
this schedule on the efficacy of the vaccine is unknown, in 
general, the greater the deviation the less certain the 
protective effect in humans.''
    Yet deviations appear rampant in the Reserve and National 
Guard units participating in the AVIP through July of this 
year. Data provided by the Department shows almost half of all 
enrolled reservists and Guard members overdue for an 
inoculation. More than 80 percent of those in some units have 
missed a scheduled vaccination. Many appear to be overdue by 
weeks and months, not days.
    DOD disputes the accuracy of their own data, pointing to 
delays in consolidating records from the service branches into 
the centralized Defense Eligibility and Enrollment Reporting 
System, which we refer to as DEERS. So, either DEERS data is 
inaccurate or compliance with the FDA prescribed shot regimen 
in Reserve component units is routinely failing. In either 
event, the program has serious problems.
    If the centralized tracking system cannot provide a real-
time picture of the inoculation status of the entire force, or 
individual units, it fails to meet the operational standard set 
by the Secretary as a condition of AVIP implementation. If the 
tracking is accurate, units are being deployed with uncertain 
and variable levels of protection. Remember, it was the 
military need for certain and consistent anthrax protection 
that dictated the mandatory nature and force-wide scope of the 
vaccination program.
    With regard to the anthrax vaccine, the Pentagon appears to 
be at war with itself. On one front, DOD compliance with the 
full anthrax shot schedule is the order of the day. Yet under 
AVIP policy, troops are deemed adequately protected from 
anthrax attack, and therefore deployable, only after three of 
the six shots. The tracking data indicates most reservists and 
Guard members receiving the first three shots roughly on 
schedule, while compliance degrades dramatically after that.
    The 1.5 million men and women serving in Reserve and 
National Guard units comprise half the total U.S. military 
force. They provide critical elements to every mission and are 
essential to national security. As more of them face the 
difficult personal and professional questions posed by the 
mandatory anthrax vaccine program, we need to know how their 
answers will affect the readiness of the volunteer force to 
complete their mission.
    We look forward to the testimony of all of our witnesses 
this morning. I want to particularly thank Mr. Cragin for 
deferring what is usually the courtesy of going first so that 
we could hear from participants in the National Guard and our 
Reserve forces so that then you could respond to what you are 
hearing as well so we do thank you for that and we have always 
appreciated your cooperation and those who work with you.
    We have two panels but before we do, we have others who 
have statements, and I am really sorry. We have our 
distinguished ranking member who also serves on the Armed 
Services Committee, Mr. Thompson and, Mr. Blagojevich, you have 
the floor.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.001
    
    [GRAPHIC] [TIFF OMITTED] T3501.002
    
    Mr. Blagojevich. Thank you very much, Mr. Chairman, and let 
me welcome our witnesses from the National Guard and Reserve 
units as well as our distinguished witnesses from the 
Department of Defense. Today we will be hearing testimony and 
particularly first-hand accounts about whether the Department 
of Defense anthrax vaccination program may be negatively 
affecting the morale of units, the retention of valuable 
service members, and possibly even the readiness of our forces.
    I do recognize that the Department of Defense is working 
hard to address the challenges inherent in any program of this 
magnitude. For example, the Department of Defense has been 
working with a computerized system, a computerized vaccine 
tracking system, that notwithstanding its efforts may suffer 
from delays but notwithstanding that it is a monumental step up 
from where we were just a few years ago.
    In fact, it seems ironic, but one benefit of the DEERS 
tracking system is that it has already begun to reveal areas 
that can be improved, such as the significant logistical 
problems with vaccinating Reserve and Guard personnel. That 
today's hearing can highlight that fact is a testament to the 
power and utility of the data base.
    However, many of us do have some serious questions for the 
Department of Defense regarding the status of research on a 
new, reduced-shot regimen, and the success of top-down 
policymaking. For now, however, let me just thank the chairman 
for having this hearing and having the entire series of 
hearings related to anthrax vaccine. The chairman has been a 
real leader on this issue and deserves a great deal of credit.
    And more than just heightening the focus on one aspect of a 
service member's health, these hearings have highlighted the 
entire context in which the military healthcare system operates 
in this country, particularly at a time when major issues have 
to be discussed regarding how we retain our service members and 
how we recruit new service members as we move into the new 
century.
    So personally I feel that this kind of rigorous and 
persistent review should be the goal not just for the anthrax 
program, but for all vaccines given to our service members, 
indeed all medications and all treatment. And let me close by 
thanking the chairman once more.
    [The prepared statement of Hon. Rod R. Blagojevich 
follows:]
[GRAPHIC] [TIFF OMITTED] T3501.003

[GRAPHIC] [TIFF OMITTED] T3501.004

    Mr. Shays. Thank you. At this time I would like to 
recognize the chairman of the committee, and actually I should 
have recognized him even before recognizing myself or the 
ranking member, so I apologize.
    Mr. Burton. Thank you, Mr. Chairman. I understand what the 
purpose of the hearing is today but I wanted to express my 
concern about some of the problems that I have heard about, and 
so I am pleased that you called this hearing today to look 
further at issues regarding anthrax and military readiness. As 
part of our ongoing investigation into vaccine safety and 
policy, we are hearing time and time again that the anthrax 
vaccine has a much higher rate of adverse events than that has 
been indicated.
    We are also hearing the Department of Defense telling 
service members that the anthrax vaccine is ``safer than 
childhood vaccines'' and that the anthrax vaccine is safer than 
hepatitis B vaccine. You know, my granddaughter had a hepatitis 
B shot and 6 hours later she quit breathing. So if it is safer 
than that it is going to have to be a lot safer than that 
because she almost died. So if there is saying it is safer than 
the hepatitis B vaccine that still doesn't allay some of my 
fears.
    Considering what we are hearing about the adverse events in 
those vaccines that doesn't still deal a great deal of 
confidence. My staff has communicated with numerous members of 
the military reserve units, active duty units, and civilian 
defense employees that have been injured by this vaccine. We 
have learned that there is a massive exodus from the Reserve 
and National Guard units especially of pilots who don't want to 
risk a lifetime of illness and a loss of the ability to support 
their families as a result of the vaccine.
    We also are hearing that just as in childhood vaccines the 
healthcare professionals that are delivering the anthrax 
vaccine are not taking the time at the time of vaccination to 
do a medical evaluation of the individual receiving the shot 
including females if they could be pregnant. They are not 
informing individuals of the potential side effects and there 
is no systematic followup with active duty military or 
reservists to track adverse events.
    I have supported proposed legislation to suspend the 
mandatory anthrax vaccination policy within the Department of 
Defense and to request extensive studies into the effectiveness 
and safety of this vaccine. We have a responsibility to the 
members of the Armed Services to get to the bottom of these 
issues and to insure they are not being put at undue risk from 
this or any other vaccines, and we need to do that before the 
fact, not after.
    On October 12 the full committee will conduct a hearing on 
the development of a safe vaccine defense policy. And so, Mr. 
Chairman, I commend you for your dedication to this issue and 
all the hard work you have put into it, and thank you very much 
for yielding to me.
    Mr. Shays. Thank you, Mr. Chairman. I appreciate your 
cooperation with the committee as always and all the staff that 
has been helpful on both sides of the aisle. At this time I 
would recognize the vice chairman of the committee, Mr. Souder.
    Mr. Souder. I thank the chairman, also the chairman of the 
full committee and the ranking member. I think this is a 
difficult issue for all of us and I would like to make a few 
brief comments. As we have worked with the anti-terrorism 
efforts in this subcommittee, we understand the dangers that 
anthrax poses to our Armed Forces and to our Nation. And it is 
with much trepidation that we have walked into this subject 
because none of us want to be accountable for something that 
may occur that would be a disaster.
    At the same time, the evidence that is coming in from 
different Guard bases, even though it is a trickle of evidence 
based on a fear that reporting could hurt people's careers both 
in the military and outside the military is at the very least 
disturbing, and we have an obligation to go forth and pursue 
this. I have not only Lieutenant Colonel Heemstra today but 
other cases in Fort Wayne of people who are afraid to come 
forth. They are concerned about their multiple livelihoods.
    Up to 70 percent at some of our major airlines, their 
pilots are Guard pilots. This should be of concern not only in 
the sense of the military but anybody who is getting on an 
airplane in this country because even if the side effects 
aren't long some of them involve headaches, involve blurred 
vision and other things that can put a dilemma not only on an 
individual pilot as far as his career and what he tells the 
airline that is employing him and the airlines increasingly 
asking that question, but puts potentially civilians throughout 
this country in unknown situations because we simply do not 
have adequate evidence.
    I honestly believe that the military is trying to address 
this and trying to look at it but at the same time it is in my 
opinion to the point where enforced vaccinations are not going 
to work. And we are going to hear a number of cases today. I 
believe more and more are coming out and the truth is the more 
we hear the more cases come forward who previously have been 
discouraged from presenting that evidence.
    And one last comment. It is really important as somebody 
who has been aggressively pro-military that the military handle 
this in a straightforward and open way. We cannot afford, and 
part of our problems here and part of the reason in some cases 
the risk has been exaggerated as far as how many people are 
affected, is because the credibility was damaged in Agent 
Orange, the credibility was damaged in the Gulf War Syndrome, 
and we cannot afford a third time because we are already having 
trouble in recruiting top pilots and people into our Armed 
Forces. We have to be straightforward and we have to confront 
this. Thank the chairman.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.005
    
    [GRAPHIC] [TIFF OMITTED] T3501.006
    
    [GRAPHIC] [TIFF OMITTED] T3501.007
    
    [GRAPHIC] [TIFF OMITTED] T3501.008
    
    [GRAPHIC] [TIFF OMITTED] T3501.009
    
    [GRAPHIC] [TIFF OMITTED] T3501.010
    
    [GRAPHIC] [TIFF OMITTED] T3501.011
    
    Mr. Shays. I thank the gentleman. I also appreciate his 
sincerity in expressing the dilemma we feel we are in. This is 
a committee that focuses on both terrorism at home and abroad 
and we know that chemical and biological agents can be used on 
our military and also on our civilian population. Mr. McHugh, 
John, it is good to have you here.
    Mr. McHugh. Mr. Chairman, thank you. I don't want to take 
up everyone's valuable time with a long statement other than to 
add my words of welcome to our panelists here this morning and 
to echo the words of the chairman of the full committee and the 
other Members here, and thanking you, Mr. Chairman, for your 
leadership and your interest. This obviously is a very 
controversial and parallel also a critically important problem 
to those of us who are charged with the oversight of these 
kinds of programs. And I look forward to the testimony today 
and what we can learn from it. Thank you.
    Mr. Shays. Thank you very much. We have three Members as 
well who are not members of the committee but I am going to 
invite them to make statements if they would like. We have 
Walter Jones from North Carolina, Jack Metcalf from Washington, 
and we have Mike Thompson from California. And let me first 
invite you, Walter, if you have any comments you would like to 
say.
    Mr. Jones. Mr. Chairman, thank you, and I will be very 
brief. But I do represent three military bases in the third 
district of North Carolina which are Camp Lejeune, Marine Air 
Station, Seymour Johnson Air Force Base, and this problem was 
brought to my attention in March of this past year by five Air 
Force officers, two active and three Reserves, and from that my 
involvement developed and grew.
    As you know, Mr. Chairman, I have introduced a bill, H.R. 
2543, which would make this voluntary by the military. My 
concern is one word and that is trust because when I think of 
the men and women sitting here today and the men and women that 
are willing to die for me today that certainly if they are 
asked to take a vaccination by the Department of Defense, they 
should be convinced that the shot is safe and they should be 
convinced that the shot is necessary. And I think the 
Department of Defense has failed in convincing the men and 
women in our military that this shot is necessary and that this 
shot is safe.
    So I want to thank you, Mr. Chairman, as well as Chairman 
Burton and all members of the committee for holding these 
hearings because I believe truthfully that what is happening is 
that the readiness of our military is seriously threatened 
because of this mandatory vaccination that is required that 
again I think raises many questions. So thank you for giving me 
a chance to sit here today. Thank you.
    Mr. Shays. Thank you very much, and it is great to have you 
not only sit but to participate as well. Thank you. Jack, any 
comments you would like to make?
    Mr. Metcalf. Thank you very much, Mr. Chairman. I have a 
brief statement. I want to thank you and the other members of 
the subcommittee for your diligent efforts to provide oversight 
and direction regarding the Department of Defense anthrax 
vaccine immunization program. I am grateful for the opportunity 
to participate in this hearing. I am deeply concerned about the 
effect this program has had on retention, readiness and morale 
among our military Reserve and National Guard units.
    Since its inception, I have had serious reservations about 
the wisdom of implementing this program and have spoken out on 
it before over the past 3 years. Congressional testimony, the 
General Accounting Office, and others have clearly demonstrated 
significant problems with the quality and safety of the anthrax 
vaccine, its ability to protect against weaponized anthrax, the 
absence of long-term studies on the vaccine's safety, 
administration and oversight of the Department of Defense 
program, adverse reaction tracking and reporting, the lack of 
medical response given to those who experience adverse 
reactions, and troubling gender issues with women reporting 
twice the rate of adverse reactions than men.
    Key service personnel are questioning the demand they 
simply follow orders when it comes to invasive inoculation that 
has questionable records. Good and honorable Marines, sailors, 
airmen and soldiers are facing court martials and other than 
honorable or dishonorable discharges because they are unwilling 
to participate in an experiment with uncertain consequences. 
Morale has been seriously compromised because of the Department 
of Defense's stubborn unwillingness to honestly address the 
concerns of our outstanding military members.
    Now I want to repeat that. Morale has been seriously 
compromised because of the Department of Defense's stubborn 
unwillingness to honestly address the concerns of our 
outstanding military members. I would like to read an excerpt 
of a letter I received from a Reserve pilot in my home State of 
Washington. It expresses the concerns that have been 
communicated to me by dozens of active and Reserve military 
members and their families.

    Dear Representative Metcalf: A sincere thank you for 
supporting our service members by your co-sponsorship of H.R. 
2548, which calls for a moratorium on the Department of Defense 
anthrax vaccination program. This bill is exactly what is 
needed to preserve the health and welfare of our many dedicated 
members in uniform.

He goes on to say,

    As you are well aware, many service members have become 
extremely ill following injections with the anthrax vaccine. 
Many have reported that following the onset of illness, the 
Department of Defense has denied any connection between their 
illness and the vaccine, leaving our own troops with absolutely 
nowhere to turn for help with their acquired illness.

    He concludes with a statement that should cause every 
Member of Congress to take note.

    As a member of the U.S. Air Force Reserve, I am appalled by 
this program, so much so that my family has concluded the best 
course of action for me is to resign my position as a C-141 
pilot. This is not our ultimate desire but has become necessary 
by DOD's callous disregard of my right of informed consent.

    It is a travesty that those who have served this country 
with honor and at great sacrifice are forced to resign from the 
service they love because of this policy. It is time for the 
Department of Defense to stop this forced program until an 
honest evaluation of the safety and efficacy of the anthrax 
vaccine is known. On behalf
of the extraordinary active and Reserve personnel in my 
district and our Nation, I want to thank you, Mr. Chairman, for 
the leadership you have provided on this issue. Again, thank 
you for the opportunity to express my concerns.
    [The prepared statement of Hon. Jack Metcalf follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.012
    
    [GRAPHIC] [TIFF OMITTED] T3501.013
    
    Mr. Shays. Thank you. At this time I recognize Mr. 
Thompson. It is great to have you here. Thank you, Mike.
    Mr. Thompson. Thank you, Mr. Chairman. I want to thank you 
for allowing me to participate in today's hearing and commend 
you on your leadership on this issue. I think it is a very 
important issue. In my district I have a large Air Force base, 
Travis Air Force Base, and it is of great concern to a lot of 
the individuals who are serving in uniform at that 
installation. As a matter of fact, one Reserve unit at Travis 
Air Force Base has a very serious problem. About half of that 
Reserve unit has threatened to resign their military service if 
they are forced to take these vaccinations.
    It gives me great concern, not only because it is in my 
district, but as a member of the Armed Services Committee, 
where we are trying to deal with the issue of retention. This 
is a problem, and anybody who has any concern about our 
military combat readiness should be concerned when we have a 
threat pending such as this. So I am very interested in 
participating today. We are having a hearing tomorrow, the 
Personnel Subcommittee of Armed Services on the same issue. 
And, Mr. Chairman, again I just want to thank you for your 
leadership on this issue.
    Mr. Shays. Thank you very much. We have been joined as well 
by committee member Janice Schakowsky, who has really been at 
every hearing on this issue and has been a major participant 
and we appreciate her presence. We are going to put in a 
statement for the record?
    Ms. Schakowsky. I have a statement for the record, yes.
    [The prepared statement of Hon. Janice D. Schakowsky 
follows:]
[GRAPHIC] [TIFF OMITTED] T3501.014

[GRAPHIC] [TIFF OMITTED] T3501.015

    Mr. Shays. OK. Thank you very much. Let me just get to the 
housekeeping and we will swear in our witnesses. Thank you for 
your patience. This is a little unusual to have as many members 
but we all have been affected by this and are deeply concerned 
as well. Let me ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and that the record remain open for 3 days for that 
purpose. Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statements, and without 
objection so ordered. Particularly we have statements from Mr. 
Gilman of New York, Mr. Thompson, Mr. Jones, and Mr. Metcalf, 
your statements will be in the record as well. Thank you. 
Without objection, so ordered.
    [The prepared statement of Hon. Benjamin A. Gilman 
follows:]
[GRAPHIC] [TIFF OMITTED] T3501.016

[GRAPHIC] [TIFF OMITTED] T3501.017

[GRAPHIC] [TIFF OMITTED] T3501.018

    Mr. Shays. Let me recognize the first panel. We thank you 
all for being here. We know that it is not something that 
military personnel look forward to doing is come before 
Congress. You have to recognize the appropriateness of being 
good American citizens and being good military personnel so I 
think your superiors know that you were requested to be here 
and respect that and will honor that you have an obligation to 
be honest with us.
    We have Mr. Thomas Heemstra, Lieutenant Colonel, Indiana 
Air Guard. We have Cheryl Hansen, Major, Air Force Reserves. We 
have David A. Panzera, Captain, New York Air National Guard. We 
have William Mangieri, Technical Sergeant, New York Air 
National Guard. If you would all rise, you know we swear in all 
our witnesses, even Members of Congress when they come and 
testify. Raise your right hands, please.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all have responded in the 
affirmative. The practice of this committee is to ask you to 
speak for 5 minutes. We let you go over. We don't encourage it 
but we let you do that but 5 minutes is our preference and we 
will shut you off after 10, but we really hope you can stay 
within the 5-minutes. Thank you very much. We are just going to 
go right down the line starting with you, Lieutenant Colonel.

 STATEMENTS OF LT. COL. THOMAS HEEMSTRA, INDIANA AIR NATIONAL 
 GUARD, ERLANGER, KY; MAJ. CHERYL HANSEN, AIR FORCE RESERVES, 
BEAVER, PA; CAP. DAVID A. PANZERA, NEW YORK AIR NATIONAL GUARD; 
 AND TECH. SGT. WILLIAM MANGIERI, NEW YORK AIR NATIONAL GUARD, 
                     HOPEWELL JUNCTION, NY

    Lieutenant Colonel Heemstra. Chairman Shays and 
distinguished Members of Congress, ladies and gentlemen, thank 
you for the invitation and the opportunity to address you this 
morning concerning the effects of the anthrax vaccine. I 
believe my academic background and military experience as a 
former F-16 Fighter Squadron Commander make my testimony 
extremely relevant to this situation. However, my viewpoint 
expressing my personal views only as a civilian comes from the 
grassroots level and a very common sense and reasonable 
approach and one that touches the heart of your troops that 
serve you.
    Once my peers and fellow workers in the Air National Guard 
share these sentiments. They are very smart and very dedicated, 
loyal troops that love their country. I humbly submit these 
views which are shared by the majority, not as a rebel to 
change policy but as a servant and a civilian soldier 
interested in examining this policy in the best interest of my 
Nation and my former troops.
    Mr. Shays. I was going to make the point, excuse me for 
interrupting, that that statement is felt by all who are 
participating today and I thank you for it, and we will save 
the others the obligation of making the same statement.
    Lieutenant Colonel Heemstra. Thank you, sir. As well, the 
anthrax vaccination, I don't know if you are familiar with the 
USA Today survey that was just published a couple weeks ago, it 
was done 2 months ago, 83 percent of Americans believe that 
military personnel should have the right to refuse the anthrax 
vaccination. I know you are familiar with a lot of background 
about the shot and so I will only hit a few highlights.
    As you know, we are the guinea pigs. We know we are the 
guinea pigs, you know we are the guinea pigs, and as one 
Senator shockingly told us a few months ago you signed on the 
dotted line when you joined giving up those rights of ordinary 
citizens so roll up your sleeve and obey orders. We may have 
surrendered those rights to our superiors but it was into their 
care and their trusteeship to take care of those rights. The 
Rockefeller Report describes the abuses of those rights and it 
is not a very good track record.
    DOD has intentionally exposed military personnel to 
potentially dangerous substances often in secret. DOD has 
repeatedly failed to comply with required ethical standards 
when using human subjects in military research during war or 
threat of war. DOD used investigational drugs. DOD records of 
anthrax vaccinations are not suitable to evaluate safety. DOD 
failed to provide information and medical followup. DOD 
demonstrated a pattern of misrepresenting the danger of various 
military exposures that continues today.
    The troops know that this is a serious ethical issue. This 
is not Internet misinformation. This is your colleagues, your 
peers, who have done their work, their job of oversight of DOD. 
The troops know that this is also a military strategy issue 
whether it is the book, the Cobra Event, or financial interest 
or an over zealous military medical community or combination or 
just CYA military leadership post Cobar Towers, whatever is 
driving this policy the effects and results will be genuinely 
seen and felt by the all volunteer force in the Guard and 
Reserve.
    The troops also know that it is an efficacy issue that DOD 
admits that there is no adequate human surrogate to determine 
the effectiveness and the necessity of the shot as Congressman 
Jones brought up and that at best the effectiveness is unknown. 
And it is also a serious safety issue. People are sick at 
Dover, Battle Creek, Tripler study and now at home in Fort 
Wayne, IN. The symptoms include dizziness, blackouts, memory 
loss, heart and respiratory problems, muscle and joint aches.
    Now I ask you to choose which one of those symptoms that 
you would enjoy experiencing when you are flying your F-16 low 
altitude, high speed, a demanding war scenario environment with 
multiple airplanes, rugged terrain. Not one of those scenarios 
sounds very good to me and also very interesting from the 
safety aspect for airline pilots like many of us are. And 
bringing that up, I know it is very difficult for people to 
understand why the retention problem is happening and very 
simply it is because many of us are, and especially the pilots 
are airline pilots and the airlines have already told us and 
their HMOs that cover us medically that they won't treat this 
as a pre-existing condition. They will not assume the 
military's liability if there is any sickness from the shot.
    Therefore, we won't have any medical retirement. We won't 
have any medical treatment coverage through the airlines and 
when we as part-time soldiers come to the military and say that 
these symptoms are the shot, we already know that the military 
has denied in most cases that this has anything to do with the 
shot and as part-time soldiers we won't have any medical 
coverage there so it is just simply not worth the risk for 
airline folks.
    There are links to Gulf war illness with memory loss. Even 
one of your own Congressman Buyer, admitted to Lieutenant 
Colonel Angerol and myself a few months ago that memory loss is 
one of the symptoms of the Gulf war illness. He probably 
doesn't remember that or may not remember that but he did admit 
that to us. And it is not very comforting for F-16 pilots to 
think about memory loss occurring short term----
    Mr. Shays. Were you asking about whether he remembered 
because he was in the Gulf war?
    Lieutenant Colonel Heemstra. Yes, sir. And not very 
comforting for airline pilots either. My troops also know the 
effects of this misguided policy. As was alluded to, the 
breakdown of trust, the leadership issue, retention rates. I 
was just at an Air Force Academy briefing last weekend and I 
understand we are 2,000 Air Force pilots shy right now of where 
we should be. This shot based on what we are seeing with our 
informal survey of other Guard and Reserve units we stand to 
lose another 1,000 to 2,000 more pilots which is billions of 
dollars just walking out the door for the sake of a shot and 
obviously will affect readiness. That experience, that combat 
experience that we have is going to be walking out the door and 
cannot be replaced very quickly.
    Last, I would like to discuss the real world case study and 
that is what happened at my base, and this will give you a 
picture of what the morale situation is. In the fall of 1998 
morale was great. We were on our way to becoming a premier unit 
in the F-16 with night vision goggles and targeting pods soon 
to come. We had a great group of people with a great blend of 
youth and experience, and we were going places looking forward 
to being the best and spreading a reputation for being the 
best.
    Then the anthrax program showed up and the leadership and 
the base philosophy was that we would be way out in the front 
and get the shot early in July 1999 and the sense of urgency 
then from what we were hearing about the shot took place with 
the troops there that we need to do some research. We sought 
out an expert on anthrax who has testified before you, Dr. 
Nass. He has written many articles and is not tainted by 
military motivations. We spent our own money to research 
possible weaponized anthrax use in Zimbabwe. And as the new 
Squadron Commander and from a sense of responsibility to my 
troops and with Air Force objectives in mind to inform and 
educate my troops, I went out and I interviewed her, checked 
out her credentials, checked out her research, and invited her 
to come back to the base to meet with the pilots.
    I asked the base leadership for a meeting with her and also 
a live debate with the DOD's representative who was going to be 
sent out. She was denied access to the base. We still had our 
meeting. There were about 20 pilots that attended, about 30 
maintenance personnel enlisted attended the meeting. Out of 
those 20 pilots all of them were I would say very committed to 
not taking the shot. And I know not until the hypodermic needle 
is about ready to go in can we really tell who is not going to 
take the shot, but they were thoroughly convinced in my 
opinion.
    With this drastic attrition in mind, I made sure that we 
informed our superiors about the concerns that we have. Pilots 
were put down then for their lack of patriotism, their lack of 
commitment, their disloyalty, their distrust in the system, and 
that was when we made a trip as a civilian back out to 
Washington to try to get some support. We went back because we 
had exercised our constitutional rights and were put under a 
gag order not to discuss the issue in uniform with any more 
military personnel.
    I complied with that directive. However, morale suffered. 
Participation by the part-time pilots drastically dropped and 
hurt our readiness. The shot, because of Kosovo and the stop-
loss then was finally put on hold when it was realized that we 
would have to court martial maybe dozens of people, and then 
the shot was made voluntary then once the stop-loss 
disappeared. However, commanders were encouraged to take the 
shot. I was then asked to take the shot myself. I did not 
refuse to take the shot. I simply said that I am uncomfortable 
with Congress doing ongoing hearings with taking the shot. I 
was then told that we have a vacancy as Squadron Commander and 
asked if I should resign or if they would like to fire me. A 
few days later I was asked to resign.
    That further plummeted morale when they realized that 
somebody who was willing to stand up for something that is 
right and stand up and protect them and their human rights was 
lost. The unit still doesn't have a Squadron Commander. We have 
kind of a fill-in but we critically lack part-time leadership 
at this time. Promotions are put on hold. Further schooling is 
put on hold unless people are willing to take the shot. So I 
can tell you morale is in the tubes. Pilots were threatened 
with being replaced by rental pilots for upcoming deployment.
    We are not sure if we are going to be taking the shot this 
fall, maybe in January. There are a lot of unknowns which adds 
to further confusion and poor morale. And, last, what is 
affecting morale is sick people. We have at least a few people 
on base that have some serious symptoms. No VAERS forms were 
filled out. They were not even offered prior to the shot or 
after the shot once the symptoms were reported. The flight 
surgeon at the base or the chief of the hospital was not even 
informed of the people that were sick and also the base 
leadership.
    Enlisted personnel obviously feel roped. They feel trapped. 
And so you probably aren't going to see huge attrition in that 
sector. However, the pilots who do have an option and a 
marketing availability on the outside, you are going to see a 
huge attrition rate and we expect to lose probably 50 percent, 
maybe more of our pilots. This is just a sample scenario. I 
think you will see it repeated throughout the country. It was 
maybe initiated here in Fort Wayne just because we have been on 
the bubble.
    Now is a critical hour and we are calling for your support. 
This should be your finest hour. I ask you to give them hope, 
show your faith in them, renew their trust, and where their 
military leadership has failed them because of careerism, 
institutionalism, lack of courage, a tyranny of distrust, give 
them a beacon of hope. As the civilian leadership that you are 
and they ultimately serve, protect them as they have protected 
you. Guard their health and future as they daily guard the 
freedoms and ideals of an incredible Nation. Thank you.
    [The prepared statement of Lt. Col. Heemstra follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.019
    
    [GRAPHIC] [TIFF OMITTED] T3501.020
    
    [GRAPHIC] [TIFF OMITTED] T3501.021
    
    [GRAPHIC] [TIFF OMITTED] T3501.022
    
    [GRAPHIC] [TIFF OMITTED] T3501.023
    
    [GRAPHIC] [TIFF OMITTED] T3501.024
    
    Mr. Shays. Thank you very much. Major Hansen. I probably 
should haven't interrupted you, Colonel, to say that what you 
said would be shared by the others but I do want to give you 
the opportunity to say whatever you want even if you want to 
repeat that but I just want you to know the committee 
understands that you are here because you have been requested 
to and you are doing it out of the highest motivations, we 
know, and I think your superior officers know that as well. 
Major Hansen.
    Major Hansen. Before I begin the testimony I would like to 
say all these opinions are completely my own. I don't represent 
the Air Force or the 459th or other members of the Air Force. 
These are only my opinions and interpretations. Mr. Chairman 
and members of the committee, good morning, my name is Major 
Cheryl Hansen, U.S. Air Force Reserves, Nurse Corps from the 
459th Aerovac Squadron, Andrews Air Force Base, Maryland. I am 
a flight instructor on the C-141 Starlifter with over 3,000 
hours of flight time.
    I am a veteran of Operation Desert Storm and Operation 
Restore Hope in Somalia and been an active member on mobility 
status for 16 years. Being on mobility status, I have been 
vaccinated on an ongoing basis as required with Yellow Fever, 
Hepatitis A and B, Tetanus, Diphtheria, Cholera, Oral Polio, 
Meningitis, Typhoid, Measles, Mumps and Rubella, and numerous 
others. I consider myself a patriotic citizen. I am a member of 
the Daughters of the American Revolution, the Colonial Dames of 
the 17th Century, the Reserve Officers' Association, the 
Veterans of Foreign Wars.
    My great, great grandfather Private Harry Boyd was a Civil 
War veteran of Company H 140th PA INfantry. Also, my great 
uncle, 2nd Lt. Donald Boyde, a navigator, was killed in acting 
during World War II while on a supply dropping mission at night 
to the French Underground and was awarded the Air Medal and the 
Purple Heart. When joining 16 years ago, I was proud to 
continue the long family lineage and was supported 
unhesitatingly by family members, friends. Everyone's morale 
and support could not have been higher. Today, this level of 
support is almost nonexistent based upon the mandatory Anthrax 
Vaccination Immunization Program.
    Before I begin my testimony, I would like to state that my 
views are entirely my own. I am not here to criticize any 
single or group of individuals within the military or try to 
convince others from participating in the AVIP if they wish to 
do so. Part of my focus is the problems of distrust and discord 
that have been manifested within the ranks as a result of the 
AVIP ordered by the DOD.
    In early June during a drill assembly, our squadron members 
were informed that we would immediately commence the AVIP. One 
month prior to this, both in our wing bulletin, the Starlifter, 
and our squadron newsletter we were informed that AVIP was 
about to begin. In addition to this throughout the summer 
months, we received additional information in both these 
publications that the AVIP was safe, effective, and believe it 
or not healthy. It also showed our leaders in a warm light, 
referring to us as being a 459th family, along with a 
photograph of one of our leaders being vaccinated.
    The newsletter encouraged us to become fully educated about 
the AVIP. Leafing on through the Starlifter appeared a stern 
photograph of another Air Force leader making the point that 
anyone believing that they could stay in the military and not 
take the anthrax vaccine is greatly misled. This Starlifter 
also stressed, do not believe what you see on the Internet. I 
found this somewhat intimidating. This article also had a 
photograph showing a big ugly sore on an arm demonstrating what 
can happen in an anthrax biological warfare attack. Included 
was a diagram displaying the high percentage of members 
participating in the AVIP. Peer pressure was strong.
    At one of the clinics at Andrews Air Force Base, a 
photograph was posted on a bulletin board showing the top brass 
with their sleeves rolled up enthusiastically receiving their 
anthrax vaccine. Underneath this picture was posted another 
newspaper clipping about a senior airman who was humiliated and 
dishonorably discharged for refusing the anthrax vaccine. Also 
at this clinic was a brochure from the DOD stating women can 
continue to attempt pregnancy and still participate in the 
AVIP. Overall, the DOD stressed there have been minimal adverse 
reactions reported.
    Since I have dedicated 16 years of my life and plan to, at 
least invest 5 more years in the Air Force, I felt I needed to 
be fully educated about the anthrax vaccine. After speaking 
with Mr. Zaid, an attorney from the James Madison Project with 
reference to the issue of anthrax, he suggested that I attend 
the 4th congressional hearing concerning the AVIP, that 
Chairman Shays was presiding. Attendance at the hearing had 
been endorsed by the Reserve Officers' Association of which our 
leaders at the 459th Wing are active members.
    Going into the hearing, I thought I was going to learn more 
information that would reinforce what I was reading in the 
459th Starlifter Newsletter and get straight answers from the 
top brass of military doctors that were on the panel. I never, 
ever expected to learn about and come face to face with the 
brave men and women from Dover AFB, who were courageous enough 
to step forward, whose lives had been literally left in 
shambles after participating in the AVIP. Similar medical 
complications with AVIP realized at Dover Air Force Base have 
also been seen at Battle Creek.
    The military personnel at both Dover Air Force Base and 
Battle Creek received the same bad batch or did they receive a 
different bad batch or are all these bad batches just a 
standard batch. In addition, after reviewing all the 
information and material that I could find on the AVIP, I do 
not have a comfort level that this vaccine has undergone the 
same methodical testing that other vaccines have undergone. And 
carried one step further, has this vaccine been pushed forward 
before thorough testing was complete by an over zealous 
pharmaceutical manufacturer eager to reap immediate profits.
    Will I ever be forced by the DOD to be injected with a 
potentially bad batch of anthrax vaccine at Andrews Air Force 
Base and eventually end up in a wheelchair unable to feed and 
wash myself with a permanent autoimmune disorder? Why did the 
459th Wing Starlifter not provide a balanced picture in regard 
to the adverse reactions with which the people both at Dover 
and Battle Creek have encountered?
    At the 4th congressional hearing on AVIP that I attended, I 
looked around the room and found that I was the only member 
from the 459th family in attendance. I found it odd that the 
people who were taking on the responsibility to convince me to 
take an immunization that I may not feel confident about were 
not in attendance at the hearing even though they worked and 
lived close by. But in all fairness to them, maybe they had no 
knowledge of the hearings or were confident with the education 
they were receiving from the DOD. Based upon all of the above, 
can I turn my body that I have to live in for the rest of my 
life over to the DOD?
    I am concerned as to what extent the DOD informed our 
leaders at my wing about the adverse reactions of the anthrax 
vaccine at other bases. To my knowledge, these adverse 
reactions were never referenced in any of our newsletters. Even 
to this day, when I asked the 459th Air Force members did they 
hear about the members that became disabled or sick at Dover 
Air Force Base or Battle Creek, MI, they surprisingly say no.
    Some of these unaware members are experiencing symptoms. 
One member stated that she had hives for 1 month that commenced 
1 week after her first anthrax vaccine and that the hives come 
and go and she must take Claritin every day for relief. Another 
member is experiencing uncharacteristic knee pain that comes 
and goes after her 4th shot. While another member has a hyper 
reaction to all bug bites that are itchier than normal, that 
takes longer to dissipate after her 4th shot. I don't talk to 
everyone, but these are a few examples and in all fairness to 
the commander, these incidences may not have been reported to 
her.
    And then there is the fertility issue. Most everyone in the 
military is in their fertile years. If someone is pregnant, it 
usually takes 1 week to confirm a positive pregnancy via blood 
or urine test. Two junior enlisted members administering the 
anthrax vaccine at Andrews told me they administer the anthrax 
vaccine until someone has a positive pregnancy test even if 
someone suspects they are pregnant. Planning a pregnancy around 
six anthrax vaccines in 18 months, along with all the other 
required immunizations can be stressful.
    I then consulted the doctor in charge of the immunization 
clinic who agreed with the two junior enlisted members adding 
that they have to administer the anthrax vaccine in this manner 
because all the women in the military would use the excuse they 
are pregnant. He refused to send me this policy in writing. On 
June 28, 1999, the 459th Airlift Wing received an official 
message indicating that due to rare instances of immediate 
sytemic reaction following an immunization you can perform 
aircrew duties in-flight following all vaccinations. I feel 
this is potentially unsafe. Was this policy changed in DOD's 
haste to administer the anthrax vaccine? Previously, the 
regulation allowed us a 12-hour time period to report any 
potential reactions before we were allowed to perform any in-
flight duties.
    In conclusion, when educating members about factual 
information I have learned from any of the congressional 
hearings, I have been stereotyped as stirring up the bees nest 
or giving out information that is going to create whining 
amongst the troops after they have all just been settled down. 
I feel as a nurse I have a moral obligation to educate people 
with readily accessible facts in regard to promoting their 
health and well being. This additional information that I have 
provided to others may not be what the DOD is informing our 
459th leaders about but it is coming directly from Capitol Hill 
and not the Internet.
    We as military members should be able to openly discuss 
both in and out of the workplace H.R. 2543 and 2548, which are 
currently before Congress, with reference to a moratorium of 
the AVIP. The balance of information as presented by these 
congressional hearings should be openly available to the 
military personnel who are solely affected by this program. 
Instead, we are being asked to take part in an anthrax 
vaccination program that has never been proven to be safe or 
effective because of a DOD directive, the alternative being 
leaving the military one way or the other.
    While this anthrax vaccine remains suspect, how many people 
will be willing to join the military to fill the ranks of those 
who will potentially leave the military as a result of their 
reluctance to participate in the program? In addition, how many 
potential new recruits will not join the armed services based 
upon their apprehension in regard to the mandatory anthrax 
vaccination requirement. This concludes my testimony today at 
your request, and I am very grateful for the opportunity and 
your time to relate my feelings on this issue, and I am 
available to respond to any questions that you may have.
    [The prepared statement of Major Hansen follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.025
    
    [GRAPHIC] [TIFF OMITTED] T3501.026
    
    [GRAPHIC] [TIFF OMITTED] T3501.027
    
    Mr. Shays. Thank you, Major. Now we will hear from Captain 
Panzera.
    Captain Panzera. I am sorry, Mr. Chairman, let me turn this 
over. Since C-SPAN isn't here the folks back home will want to 
hear it. Chairman Shays, members of the committee, I want to 
thank you for your attention to this issue. It is not easy. It 
is not fun. Some would say it is not fair. And a lot of people 
are being affected negatively. My name is Captain Dave Panzera. 
I am an aircraft commander in the greatest C-130 out there, the 
LC-130. I have given counsel a post card with a picture of the 
airplane and the reason I have given this picture to him to 
give to you is because right behind it you will see the 
mountain, Mt. Erelous, which is down in McMurdo in Antarctica. 
That is where we fly. An incredible place but an incredibly 
dangerous one. And I am going to go into the reasons why it is 
so important to remember this picture.
    Behind that airplane on that mountain in 1978 an airplane 
flew right into the side and it simply was an error but it is 
one that could happen to anybody and one that we have to guard 
against. Let me get into my testimony and I will tell you why. 
I entered in 1985 as an enlisted man. I was crew chief on C-
130's at Little Rock Air Force Base. I got an early out for 
university training, completed that at my own expense to come 
back in. The thrill of becoming a pilot was a dream and it was 
a dream come true.
    And really by the strength of God and family, I am here 
today with wings and it is a tremendous opportunity for any man 
or woman. From a pilot's perspective what it takes to fly in 
our unit is substantial. It is substantial to fly any aircraft 
in the military but I want to give you what our specifics are. 
You will go to UPT. I am sure you know that is pilot training 
for the Air Force. You will go to survival school and learn how 
to do what Scott O'Grady did. You will then go to your primary 
aircraft training and that takes a substantial amount of time 
and a substantial amount of taxpayer dollars.
    You will then come to our unit, go through a short 
conversion because of the differences in models and then you 
will start your ski training and that will take you about a 
year of experience. It is not that anyone can't move a lever, 
operate switches or even fly the airplane. The problem is your 
experience in getting to where you are going safely and 
carefully. We have had recent high media attention on an 
aircraft accident about experience and I think you know to what 
I refer. Well, in the end to make it generic aircraft commander 
in the snow is about 4\1/2\ to 5 years and $4\1/2\ to $5 
million taxpayer dollars. That is a significant investment for 
the average guy. That is Joe Average once again, aircraft 
commander.
    This is not the more expensive person, the evaluator, the 
instructor, the people who to take a Biblical maxim, raise up a 
pilot in the way they should go so that when they are old they 
do not depart controlled flight because that is not what you 
want. Departing controlled flight means meeting Mt. Erelous up 
close and personal. Well, in the end that cost is something we 
stand to lose. Congress Members across the board have 
routinely, and I thank them for this, routinely refer to 
military members as some of America's best and brightest. Some 
of American's best and brightest have been doing some homework 
and they are not that happy with what they are finding.
    Are they going to suspicious sources? I imagine of course 
they are going to run across some of those but to the folks I 
have talked to, to the people I have held conversations with, 
they have gone through, carefully, congressional testimony. 
They have sought out other professionals in and out of the 
military. They have looked at the safety of the vaccine as you 
have heard this morning. They question the potential of having 
children later in life. They have all kinds of concerns as 
Guard members and reservists with their healthcare outside of 
the Guard. Will this be a pre-existing condition? Will I be 
covered? Will the DOD continue to deny if they don't recognize 
this as a real and viable issue, will I be left in the dark?
    We have seen evidence of that and that concerns them 
greatly. We have enlisted and officer problems because officers 
by and large in the military as it goes with the Air Force, 
most of them have a professional skill that directly translates 
accordingly with a college degree and their skills are a little 
more marketable. This is not to underscore the importance of 
the enlisted or the fact that many of them are as equally 
educated. But the fact is we know an airline pilot could easily 
sustain leaving a Guard position whereas many enlisted folks 
are caught between the rock of providing for their family, 
making their future bright, taking care of college concerns for 
their own children, guarding their health, and the fact that 
they have the shot coming.
    And as the hard place and the rock come closer together 
they have to step off in one direction or the other. What a 
miserable place to be. America has got the best all volunteer 
force in the world. No one can match us and we are proud of 
what we can do. We are thrilled to be able to go even to 
Antarctica where a standard day is 40 below. Would you like to 
go with us? It is a tremendous opportunity across the board but 
because of these concerns many of them will indeed exercise an 
option that they have for if they no longer have commitment or 
if they have run into--they have done their 20-year service and 
they don't want to play this reindeer game anymore or if they 
are just too scared, which many of them are, they will simply 
exercise the option to step off. I am scared of that. I am very 
scared of that.
    I am a full-time aircraft commander. There are eight of us 
that are full-time aircraft commanders in my unit. The 
departure of just two of these aircraft commanders means that 
instead of spending 10 weeks throwing snowballs at each other 
in Antarctica, I will be down there for 13\1/2\. My wife is not 
happy about that. That is hard to explain to her. It is hard to 
come back after that long a time and seeing my kids change and 
I missed a lot of things. We are willing to do those things. 
They are willing to support me in doing those things.
    The departure of four of these AGRs means 20 weeks in 
Antarctica instead of 10. Think of the fatigue factor. Think of 
the safety concerns that spiral upward as people have to do 
more because other people have left. And do you know what, that 
does not even consider the guardsmen and the technicians that 
would leave. That is just the AGRs and they are not in as much 
of a position to depart as the guardsmen and reservists who 
have professions outside of the Guard that are of a grave 
concern to them. Our mission impact will be serious. We are 
already facing a tough time pulling in many other people to 
fill the billets that we have.
    Could you imagine the losses that our unit--if the echelon 
of instructors and echelon of evaluators leave, we can't 
replace them, not any time soon. It will require a military 
generation, so to speak, 10 to 12-year veterans who keep us 
safe, who watch over us as we start to do our mission and as we 
learn and as we gain our experience may leave us. That is a 
safety concern. That is a mission effectiveness concern. That 
is a morale concern that I can't even begin to express to you 
in a short amount of time.
    In conclusion, I have been asked to ask you one simple 
question because it seems to have come from every different 
angle and in different words. I summed it up this way. Would 
you as Congress Members be willing to sacrifice any career over 
a shot that has the potential to do what anthrax has been 
demonstrated to do in some folks, would you be willing to do 
that? The other example is if you knew you were getting on the 
airplane with me and I wasn't doing good, would you be willing 
to near fly this hill? I thank you for your time and I will 
take your questions at the end of the testimony.
    [The prepared statement of Captain Panzera follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.028
    
    [GRAPHIC] [TIFF OMITTED] T3501.029
    
    [GRAPHIC] [TIFF OMITTED] T3501.030
    
    [GRAPHIC] [TIFF OMITTED] T3501.031
    
    Mr. Shays. Thank you. You heard bells ringing. We are going 
to have a series of votes but we are going to be able to get to 
you, Sergeant Mangieri. You will be able to give your full 
statement and then we will get on our way. So you have the 
floor.
    Sergeant Mangieri. Yes, sir. Mr. Chairman and members of 
the committee, I thank you for giving me the opportunity to 
testify before you today on the continuing saga of the Anthrax 
Vaccination Program. As recently as September 20, 1999, I was a 
Readiness Technician with the 105th Airlift Wing in Newburgh, 
NY. As a readiness technician, I am responsible for training 
the base populous in nuclear, biological, and chemical warfare 
defense. During my tenure at the 105th, I have personally given 
over 200 presentations on field level defense against these 
agents. Including but not limited to, anthrax, the most deadly 
biological warfare agent in the world.
    About this time last year several members of the 105th 
Airlift Wing had sought my personal opinion regarding the 
mandatory Anthrax Vaccination Program. At this point I 
consistently supported DOD doctrine, including the vaccine in 
the anthrax portion of my 3-hour presentation. My friends and 
fellow guardsmen continued to raise concerns about the vaccine, 
compelling me to start a 6-month research project investigating 
the entire program. My mission was to validate this program in 
hopes of affording real protection to our members out in the 
field if this horrible biological warfare agent was used 
against us.
    Unfortunately, when my research was concluded, I found a 
pattern of inconsistencies, constant misrepresentations by the 
DOD and poor program administration and management. I felt I 
had a professional obligation to my students to inform them of 
these findings. I felt I had a moral obligation to my friends 
and fellow Guard members to serve as their voice of reason in 
the campaign against this ill-prepared vaccination program. In 
April of this year I concluded my research. I released a 
newsletter which included events and testimony that question 
the effectiveness and safety of the vaccine. Also, I included 
information on the FDA inspection report of the former Michigan 
Biologic Products Institute.
    The publication became very popular, prompting my command 
to temporarily prohibit me from teaching any classes. I was 
ordered to stop speaking to individuals about the anthrax 
vaccine. In addition, I was ordered to receive a psychological 
evaluation by base medical staff. After several unsuccessful 
attempts to inform my command of my views, I decided to take my 
concerns to the mass media. My protest was widely publicized 
because of my background in weapons of mass destruction.
    On August 27, I was informed that I would be denied re-
enlistment. When I asked why, I was told that they didn't have 
to give me a reason, it was the commander's discretion. The 
reason was clear. I was being denied re-enlistment because of 
my public protest of the anthrax vaccine in non-duty status. I 
was asked to provide testimony today in regards to the impact 
of this program on our Guard and Reserve forces. My experience 
is quite unique. When members depart from service, they must 
come through my office to check out so we can update our 
training roster. Many of our members who have recently 
separated privately told me that the dominant factor in their 
decisions was the anticipated anthrax inoculation.
    In my opinion there are four categories of service members 
who in the ensuing months will depart the Guard and Reserve 
because of the forced anthrax inoculation. First, our critical 
assets, our pilots whom many hold civilian commercial airline 
positions. They are primarily concerned with the short-term 
side effects such as dizziness that may affect their flying 
abilities. Their concerns are valid. Nobody wants an Air Guard 
pilot freshly injected with the anthrax vaccine to experience 
these short-term effects on final approach into JFK airport in 
their civilian 747.
    The second category of members who will depart are men and 
women who have accrued 20 or more years of service. They are 
eligible for retirement at any time. At Stewart Air Guard Base, 
this group has undoubtedly voiced their concerns to me more 
than any other. Their overall concern is the unknown long-term 
health effects of the vaccine. When these members turn 60, they 
want to be around to reap the rewards of long and faithful 
service. What is our loss? Literally thousands of years of 
experience that could have been passed down to our young 
people.
    Our young people comprise the third category. This group 
represents the future of the Guard and Reserves. They do not 
have a significant time investment in the military. What they 
do have is a myriad of infinite possibilities. Our current 
economic boom has fostered greater opportunities in a wide 
variety of career fields. They have other options besides a 
military career. Losing them means losing our future leaders. 
Last, I must mention the brave men and women stuck in the 
middle. This is my category. We have made a significant time 
investment into our military careers but we are strong in our 
convictions and are compelled to listen to our conscience. What 
is the loss? Some very dedicated men and women with many 
talents walking out the door either voluntarily or 
involuntarily.
    If the threat of anthrax is so imminent, why hasn't the DOD 
put a greater emphasis on field level training in the NBC 
arena? Anyone in the readiness career field can tell you that 
our program is often brushed aside for more romantic high-
ticket items like state-of-the-art aircraft and missile 
systems. Participating in NBC warfare training and exercises 
often requires wearing a special suit that is quite 
uncomfortable especially when it is hot. These annoyances are 
expressed in common complaints, which are conveyed to unit 
commanders. The end result is often the let us do the bare 
minimum attitude.
    Ability to survive and operate in a bio-hazardous 
environment requires the re-qualification of perishable skills. 
If the threat of biological attack is so imminent, we should be 
training with increased intensity and bio-warfare defense 
should be a top priority. I have not been convinced that it 
would be medically sound to immunize troops against individual 
agents. There are 50 known biological agents, immunizing 
members for every one would be devastating on our immune 
systems. We already receive too many shots. I think forced 
medical protection should be re-conceptualized.
    There has been much talk about developing immune boosting 
systems that would protect us against all biological agents. I 
believe this medical prophylactic would be the most effective 
and safer too. For these reasons, I am enormously suspicious of 
this so-called imminent threat and believe the best interests 
of our members are not being served. The DOD has a long history 
of covering up distasteful events that have affected the health 
and welfare of its members. I don't believe we have bad people 
in our military. I believe we get a lot of bad advice coupled 
with misguided intentions and then proliferated with powerful 
egos.
    At the dawn of a new millennium, I believe it is an 
opportune time to start off from scratch again and make our 
wrongs right and forge a new commitment to the brave men and 
women who serve that I have had the pleasure of serving with in 
the greatest institution ever created, and that is the U.S. 
Military. Thanks a lot.
    [The prepared statement of Sergeant Mangieri, Jr., 
follows:]
[GRAPHIC] [TIFF OMITTED] T3501.032

[GRAPHIC] [TIFF OMITTED] T3501.033

[GRAPHIC] [TIFF OMITTED] T3501.034

    Mr. Shays. I thank all four of you. You are very 
extraordinarily articulate people. We have about 5 minutes to 
get to vote. We have two votes. We will be back. So I suspect 
it will probably be 15 minutes to 20 that we will be back but 
hope to be back in 15.
    [Recess]
    Mr. Shays. It is my intention to have other members go 
first but let me start by again thanking you for your very 
articulate statements and to say that in all the areas 
involving anthrax the one that concerns me most is as it 
relates to our Reserve and National Guard units because it 
seems to me our Reserve and National Guard units have the best 
opportunity to express themselves by simply leaving. And within 
the Reserve and National Guard units the one that concerns me 
most are those who have technical skills that they think would 
be in jeopardy if they take this vaccine.
    So I would like to ask each of you how you would agree or 
disagree with the statement I am going to read. Mr. Cragin 
submitted a statement to us. He is the principal Deputy 
Assistant Secretary of Defense for Reserve Affairs. He 
submitted his statement. In his statement, I am just taking 
parts of it now admittedly, but I will read you two paragraphs 
and I want to know if you agree or disagree, and if you agree 
or disagree where and why.
    First and foremost, we must be aware that, except in a very 
small number of cases, the anthrax vaccination program is not 
the determining factor behind a member's decision to withdraw 
from military service. However, we must also acknowledge that, 
in some cases, concern about the program can, has been and will 
continue to be a factor in the decision of some service members 
to leave the force. So his point is it is in a very small 
number of cases.
    And then he says despite the current negligible impact of 
the anthrax protection program on readiness, the Department of 
Defense continues to monitor the situation carefully and 
constantly. If or when anthrax vaccinations are cited by a 
service member as a reason for leaving or seeking reassignment, 
or if they indicate their intent to refuse the shot, Reserve 
Commanders in the field make conscientious efforts to educate 
and inform their personnel about the nature and purpose of the 
protection program. The commander's goal is to help their 
personnel fully understand and appreciate the nature of the 
threat and the necessity of vaccination.
    I am going to ask whether you agree with the statement that 
in a very small number of cases, and then I am going to ask you 
if you were aware of any reservists or National Guard men and 
women who have simply been asked--told they can terminate their 
service but they cannot use anthrax as the reason for leaving. 
And then after you respond to that question, I am going to give 
the floor to you, Mr. Chairman, so I am just going through this 
set of questions. Mr. Heemstra. Excuse me, Lieutenant Colonel 
Heemstra.
    Lieutenant Colonel Heemstra. Yes, sir. I disagree with that 
statement. I think it is classic denial. With the anthrax being 
the only determining factor in--I guess what happens is as guys 
are informed about the anthrax decision or the anthrax shot 
coming down and doing research they start looking for other 
options, for example, doing Air Force Academy liaison work, you 
know, rather than flying a 16 to hopefully put off the shot 
thing for a couple or 3 years. Or looking back over their 
military career and discussing things with their family, they 
find other ways to justify maybe why they are not going to 
continue their military career.
    Mr. Shays. You have not left the service but you have given 
up a command, is that correct?
    Lieutenant Colonel Heemstra. Yes, sir.
    Mr. Shays. And the basis for giving up that command is that 
you do not support the anthrax program?
    Lieutenant Colonel Heemstra. Well, sir, that was asked 
directly and the answer was because I did not take the shot. 
And so it was because I did not take the shot that I was asked 
to resign. That was not applied to all commanders that way.
    Mr. Shays. Do you know of any of your fellow pilots who 
have chosen in the Indiana Air National Guard to leave 
primarily if not solely because of the anthrax vaccination 
program?
    Lieutenant Colonel Heemstra. They could be asked on any 
given day, you know, and with their frustration I have heard 
them say yes, I am leaving because of the anthrax. That is 
the----
    Mr. Shays. And did they leave?
    Lieutenant Colonel Heemstra. Yes.
    Mr. Shays. Major Hansen, you are a nurse.
    Major Hansen. Yes.
    Mr. Shays. So you have--I know doctors take certain pledges 
as it relates to their medical responsibilities. I plead 
ignorance on this but do nurses take an oath as a nurse, 
Hippocratic Oath?
    Major Hansen. I don't remember taking an oath as a nurse.
    Mr. Shays. But you obviously are taught ethics in your 
profession and those ethics play a major role in how you can--
--
    Major Hansen. Well, I feel people should be aware of what 
they are taking. When I went to nursing school it was really a 
big deal for people to be fully educated about their health 
care, informed consent, any side effects that may occur with 
anything. I feel with the anthrax it is a dark subject. It was 
a real eye opening experience coming to the 4th congressional 
hearing. It is something that I had never seen in a DOD 
pamphlet, the adverse reactions. The only thing you see is 
minimal reactions.
    Mr. Shays. Are you aware of people who have left the 
service solely or if not solely primarily because of the 
anthrax program?
    Major Hansen. Personally I don't know of anybody as far as 
the medical squadron. I am not sure, I have heard rumors about 
the pilots and engineers but I can't----
    Mr. Shays. Those are rumors so we are really interested in 
real life examples.
    Major Hansen. I don't know of anybody personally.
    Mr. Shays. Thank you. Captain Panzera.
    Captain Panzera. Sir, I have nobody that I know personally 
up front. We are scheduled to start the shot series starting in 
March of next year. And the whole intent of coming down was to 
expose the fact that you cannot repair on the back side of 
losing these people as you can on the front side. In other 
words, their concerns are real. They are firm in their 
convictions and their departures will occur.
    To the numbers, I am not prepared to give you an absolute 
number but I can tell you fully over a third of our pilot corps 
and that is devastating especially with the uniqueness of our 
mission. So in that light I can't tell you that anyone I know 
exactly at my unit has departed over the issue but reading the 
other testimony, that is evidence enough of folks who have left 
or will be part of leaving. That is weighing on the minds of 
folks.
    Mr. Shays. We already had testimony in previous hearings of 
pilots who have left solely for that and we have testimony that 
in some cases they were told they could leave the service but 
not use anthrax as the reason. Sergeant Mangieri.
    Sergeant Mangieri. Yes, sir. I know several individuals who 
will be leaving my unit solely because of the anthrax vaccine 
and also other factors that are involved with military life. 
This subject has not even hit critical mass yet. Once people 
start getting these shots within their units and somebody, God 
forbid, gets sick, that story, as you know, is going to go all 
over the base. And even if it is a small type of ailment that 
they have, the story is going to be big enough where other 
people are going to jump ship when they hear that.
    As somebody who--I took the anthrax vaccine on January 6, 
1991, in Riyadh, Saudi Arabia. I took two shots, a botulism 
toxoid shot and also pridostigmine B tabs for chemical nerve 
agent protection. I can tell you that my experience has been 
not to mix them, do not cocktail them. And a lot of what I have 
talked about to members who have said they are going to leave, 
I tell them, well, it may be a good idea at this point because 
we can't trust this vaccine.
    Mr. Shays. Let me just ask you one last question because 
when you made your testimony I felt like I was in the Soviet 
Union and not in the United States. In April of this year I 
concluded, this is your statement, in April of this year I 
concluded my research. I released a newsletter which included 
events and testimonies that question the effectiveness and 
safety of the vaccine. Also, I included information on the FDA 
inspection report of the former Michigan Biological Products 
Institute. This is where the product is made.
    This publication became very popular prompting my command 
to temporarily prohibit me from teaching any classes. I was 
ordered to stop speaking to individuals about the anthrax 
vaccine. In addition, I was ordered to receive a psychological 
evaluation by our base medical staff. Do you believe that you 
were ordered to take that evaluation because of what you had 
done?
    Sergeant Mangieri. Yes. They actually told me that--when I 
passed out that newsletter I was teaching a class. They sent 
security police to come get me and they detained me. And they 
told me the reason why they wanted to do this psychological 
evaluation is that the Columbine High School tragedy had 
happened 2 or 3 days before I sent this out so they were 
worried about me doing something crazy which I have absolutely 
no history of violence in my life or psychological problems in 
my life. I live a very basic life in Hudson Valley, NY, and 
that was the reason they told me. So I had a Major who was a 
nurse, medical nurse, evaluate me. I believe they did a report 
and it really kind of--it stopped there.
    Mr. Shays. How did you do?
    Sergeant Mangieri. I think she got a little nuts after I 
talked to her, I don't know. I think she wanted to evaluate 
herself at that point.
    Mr. Shays. Excuse me, Mr. Chairman. You have the floor.
    Mr. Burton. I don't have a lot of questions, Mr. Chairman, 
for this panel. I do, however, have a number of questions for 
the medical experts from the Defense Department. But some of 
the things that are troubling to me and one of the things I 
believe Colonel Heemstra said was that the retention is 
horrible. The estimate of losing 25 to 60 percent of the Guard 
and Reserve pilots from various units. You are already 2,000 
pilots short. The potentiality of losing another 1,000 to 
2,000, and if you multiply that by the $6 million it costs to 
train that is over $1 billion in national expenses walking out 
the door, is that correct?
    Lieutenant Colonel Heemstra. Yes, sir. That math there, I 
think it should have been $10 billion.
    Mr. Burton. $10 billion?
    Lieutenant Colonel Heemstra. I wasn't that quick but that 
is what you wrote down was $1 billion but it is $10 billion?
    Lieutenant Colonel Heemstra. I will have to get on my 
secretary for that but informal surveys----
    Mr. Burton. Always blame it on your secretary. We are not 
going to let you get away with that, sir.
    Lieutenant Colonel Heemstra. With the informal survey it 
looks like possibly--the numbers right now are about over 500 I 
guess of it looks like pilots that will walk out the door over 
the shot. In our unit, just to give you an example, when Dr. 
Nass came we had 20 pilots at the meeting which is about two-
thirds and from that meeting whether these people stick with 
their commitment but do not take the shot it looks like all 20 
would not at that time take the shot.
    Mr. Burton. But here is what we have in a report I just 
got. At Travis Air Force Base alone 32 pilots in the 301st 
Airlift Squadron have resigned or are planning to resign. That 
is more than a 50 percent attrition rate. The Baltimore Sun 
reports that 25 F-16 pilots of the 35 in the 122nd Fighter Wing 
of the Indiana National Guard are refusing the vaccination and 
that the squadron is being grounded and of course you know 
about that.
    Then it says Regal who stands to lose about 12,000 a year 
as an instructor for the C-5, the Air Force's largest plane, 
says that 21 of the 57 pilots are leaving his squadron at 
Dover, DE. That is 100 men walking out the door. And what the 
Defense Department is saying is don't let the door hit you in 
the derriere. I am being a little nicer. We are also hearing 
that the 105th Air Wing stands to lose about 200 people because 
of the anthrax vaccine. It will be the largest voluntary 
departure of any single military unit in the world.
    And it says from 1996 to 1998 the Air Force lost 369 pilots 
and they anticipate 340 pilots leaving this year. We have, as I 
understand it, aircraft carriers leaving with 400 to 500 
personnel short right now for a number of reasons, not all 
attributed to anthrax vaccine. But our military is really 
suffering right now. I mean it is suffering severely. The cuts 
in the military budget, the unpreparedness of a lot of 
different units coupled with this anthrax thing is really 
undermining the security of the United States and we are 
sending troops all over the world with all these little brush 
fire wars trying to be the world's policeman.
    And I just can't help but believe that an enemy of the 
United States couldn't do a better job of destroying the morale 
of the military than our own Defense Department is doing right 
now. It just doesn't make any sense to me. Now I also intend to 
ask these military physicians and experts if this anthrax 
vaccine will protect the military against all strains of 
anthrax because I have been led to believe that there is about 
21 or 22 strains of anthrax and that in laboratory studies of 
guinea pigs, they can't do this on human beings, they can't 
have them inhaling the anthrax vaccine or virus, but after 
these animals have been inoculated with the anthrax vaccine, 
and I will ask them this in more detail, a large percentage of 
the laboratory animals died even though they had had the 
vaccine.
    And if this doesn't protect against all strains of anthrax 
what in the world are we doing it for? So for those of you 
sitting back there ready to testify in the next panel you might 
get prepared for that because those are some of the questions 
we are going to be asking. If I were in the military right now, 
I wouldn't take it. And don't shake your head back there. I 
wouldn't shake it. And I just want you to know that until there 
is scientific evidence that it is safe and effective, you are 
not going to get these people to take this thing like they 
should and it is going to be undermining the military to 
protect the people of this country.
    I mean look at the exodus. Look at the amount of people 
that are doing double duty on the aircraft carriers that are 
going out into the water. The Navy people know that, that are 
going out into these various--they are doing two and three 
stints of double duty. I just don't understand that. And until 
you got the confidence of your military personnel on something 
like this you shouldn't be ramming this down their throats. Now 
if you can prove that it is effective and safe, as I think has 
been said by others today, then I think you got a different 
argument but boy I will tell you after the Gulf War Syndrome 
and the Agent Orange debacle and all these other things that 
have happened to force this right now especially with the 
exodus that we are seeing, this doesn't make any sense to me.
    So I want to congratulate you folks for having the guts to 
come forward and talk to Congress. I know some of you have laid 
your reputations and your careers on the line and at least as 
far as I am concerned, I really appreciate that. And the 
subcommittee chairman and I will be working together to 
continue to study this issue and get to the bottom of it. Thank 
you.
    Mr. Shays. I am happy to have any of you comment to what 
was said before I recognize Ms. Schakowsky. Did you, Major, 
have a comment to make?
    Major Hansen. I guess my comment is that if we feel 
uncomfortable taking the anthrax vaccine and we are faced with 
signing into a drill weekend and we are faced with either 
resigning or taking the vaccine, how do we manage this and when 
is Congress or the Senate ever going to come to some sort of 
resolution, moratorium or any sort of thing like that? How long 
do we have to wait, be in limbo I guess is the question.
    Mr. Shays. It is a fair question and let me say that this 
is intended to be our last hearing unless something comes up 
where we get a dispute on data that requires us to have another 
hearing to clarify some numbers. But let me just tell you there 
are three parties here and I think we all have different 
challenges. The military with good intentions began this 
program. I think it hasn't worked out the way they intended. 
They decided to do sole source. I think that has been a 
problem. There I think has been a gigantic concern on the part 
of military personnel in the active and in the inactive but it 
is particularly alarming in the Reserve elements and 
particularly with pilots who have to make a determination on 
whether they want to take a risk if it is even slight and then 
give up a necessary stream of income in their full-time work 
and knowing as well that if they are adversely affected the 
military won't be there to help them.
    So at any rate you have the military that has to figure out 
where they go with this program because there are gigantic 
problems. All of you have problems in whether you are going to 
fulfill your obligations as military personnel but decide 
literally to give your body to the military when you know that 
you are going to leave the military but they affected your 
bodies. And you have a problem on our side and our side is that 
we do know there is a very real terrorist threat and we have to 
decide where we come down on this issue as well.
    And the question from our side is that we know that there 
are countries and individuals who are willing to use anthrax to 
fulfill whatever objective they have but we also know they have 
the ability to alter it and we also know that if we protect 
from anthrax they can decide to use something else. So we are 
weighing this issue as well. Should it be mandatory, should it 
be voluntary, should it be called what we think it is, an 
experimental drug which makes it voluntary and then require the 
President to say in certain cases it has to be mandatory.
    So we have all these questions but I think we are close to 
as a committee coming to some conclusions and fortunately with 
the help of people like Ms. Schakowsky and others I think we 
will come to what we think is the right answer and then try to 
work our will on it. Ms. Schakowsky.
    Ms. Schakowsky. Thank you very much, Mr. Chairman, and for 
your leadership on this issue. Major Hansen, I want you to know 
that I am interested in gender differences and had asked the 
GAO to investigate that in regard to anthrax. And the chairman 
and Mr. Metcalf have joined me on that and I appreciate it. We 
don't have the answers yet but I was interested in what you 
said about the pregnancy issues. Not so much the health effects 
that might result because we don't know them but about how well 
the policy guidance from DOD is being followed.
    You stated that you were told by two junior level enlisted 
members at Andrews Air Force Base that they administered the 
vaccine until someone has positively--until there is a positive 
pregnancy.
    Major Hansen. Exactly.
    Ms. Schakowsky. And you stated that you also confirmed this 
with the doctor in the immunization clinic but that he refused 
to send you this policy in writing. Did he say why he refused 
to do that?
    Major Hansen. No. No. I dropped the issue. He didn't say. 
He went into a big explanation of when the ovum anchors on the 
uterine wall and that is when it is safe to take the anthrax 
vaccine. While it is floating around in the uterus you can take 
it and it is OK. That is the explanation he gave me.
    Ms. Schakowsky. But he also said to you that women would 
claim, all the women, that they are pregnant?
    Major Hansen. Oh, yeah, I heard that a couple different 
times from a couple different doctors. The women would all say 
they were pregnant so they could get out of it. Not all of them 
but a substantial amount.
    Ms. Schakowsky. Is that your experience or your feeling 
that, you know----
    Major Hansen. No, I really don't think so. No.
    Ms. Schakowsky. I just for the record want to say that that 
question offends me, that it suggests that women in the 
military would tell falsehoods in order to escape something 
that was military regulations.
    Captain Panzera. May I offer something on this too? In some 
of the conversations I have had with folks back in my unit one 
of the things that has been key with them is we will get in the 
squadron and the beautiful thing about the Guard is we are 
family. After all we are in careers together for sometimes 
upwards to 20 years so you get to know folks real well. You get 
to know their wives or their husband and their kids.
    So when they are all together and we are having a family 
function and the subject comes up and the issues are brought 
forth and the evidence from both the DOD and other sources are 
used, I can't tell you the stress that is on these spouses 
about the pregnancy issue because it is not just the military 
member affected here now. Now it is the rest of the family. So 
it's a whole lot of other women outside of that that are 
affected as well.
    Ms. Schakowsky. Thank you. The Army's official AVIP plan 
describes in detail the procedures for doctors administering 
the vaccine and I want to read you that. It states, ``Each 
woman should be questioned before each injection as to whether 
she is or may be pregnant. If she states that she is pregnant 
or suspects that she might be or is not sure defer the 
immunization and refer her for evaluation for possible 
pregnancy.'' What I hear you saying is that that may not be the 
policy at Andrews, is that correct?
    Major Hansen. Yes, that is--when I talked to the people, 
junior enlisted people giving immunizations it seemed like they 
were pretty sure of themselves giving--saying what I am saying 
that until there is a positive pregnancy test they vaccinate 
people. And I wondered how many people they had been doing this 
to.
    Ms. Schakowsky. Well, that was my last question. I wanted 
to know if you know of any women who thought there was a chance 
that they might be pregnant and were told--and told the doctor 
this but were still required to take the vaccine.
    Major Hansen. No, I don't know of anybody. I just know that 
when I approached these two people and this doctor this is what 
they told me but I don't know of anybody they have actually 
vaccinated. But I am guessing that if this is what they are 
saying, this is what they are doing.
    Ms. Schakowsky. Let me ask Lieutenant Colonel Heemstra a 
question. You said that the insurance industry will not cover 
illnesses that are related to the anthrax vaccine. You were 
talking about prior conditions. If the department denies that 
there is any link then on what basis might an insurance company 
decide that a disease or an ailment or condition were caused by 
the anthrax vaccine? In other words, on what basis might they 
deny coverage?
    Lieutenant Colonel Heemstra. I guess if we took the shot 
and expected our airline insurance companies to protect us, we 
would have to make sure we didn't tell them anything about 
anthrax. Of course, I guess as long as we don't say that we 
took the anthrax shot I guess we could probably still get 
coverage from our civilian medical.
    Ms. Schakowsky. So the insurance industry for the purpose 
of coverage has made a determination that there is some risk 
involved because they are asking the question and then if you 
present with some sort of illness are those bills being--they 
are not being covered?
    Lieutenant Colonel Heemstra. I guess a lot of it, there 
haven't been too many cases yet and so airline guys are trying 
to anticipate what the response is going to be so I am not 
sure.
    Ms. Schakowsky. How is this communicated? Does the 
insurance industry have a policy? Do they tell you that? How do 
you know about this?
    Lieutenant Colonel Heemstra. Well, I spent a few hours with 
my chief pilot with my airline and gone up the chain of command 
through the civilian airline to try to find answers to those 
questions. And the answer that I am getting is that they will 
treat--they expect the military to assume the liability for 
this anthrax--any anthrax-related illnesses. So like I said as 
long as you go in and just tell them you are sick and don't 
admit that you took an anthrax shot, I guess you could still 
probably----
    Ms. Schakowsky. But they are asking you, they ask if you 
have taken the anthrax shot?
    Lieutenant Colonel Heemstra. I am not sure. Like I said, 
there are no cases yet so we are just anticipating and it looks 
like they probably are. And we haven't heard this first end yet 
but the airlines in interviews are starting to ask if people 
have taken the anthrax.
    Ms. Schakowsky. Thank you. I appreciate it.
    Mr. Shays. Before I recognize Mr. Souder, let me just say 
that in our third hearing we had people in the military who 
simply refused to take the shots. Some were in the active 
service. Some were in the Reserve. And all of them face serious 
consequences from that. In the fourth hearing we had 
individuals who took the shots who had adverse impacts and they 
confirmed that they were not provided any health benefits. And 
you are the fifth hearing where you are potential refusers. In 
your case, Lieutenant Colonel Heemstra, you were an active 
pilot and now you are still in the Reserves but you are no 
longer commander and also no longer flying, is that correct?
    Lieutenant Colonel Heemstra. No, sir. I am still flying. 
They are allowing me to continue flying.
    Mr. Shays. Now just explain that one just because you are 
not deemed to be in that first tier now because you moved over 
that you will not be going in the theater or should we not 
explore this because then they may make you take it?
    Lieutenant Colonel Heemstra. I guess we are expecting to 
deploy some time in the future so----
    Mr. Shays. Are you just postponing your day of reckoning?
    Lieutenant Colonel Heemstra. Yes, sir.
    Mr. Shays. And hoping that Congress will take action. Mr. 
Souder.
    Mr. Souder. To further elaborate that point, I think the 
unit is scheduled to go to Saudi Arabia in April, or is it 
March?
    Lieutenant Colonel Heemstra. Yes, sir.
    Mr. Souder. And that November is D Day in Fort Wayne, so to 
speak, at least that is what I have been told because it goes 
from the voluntary into a zone where it is considered higher 
risk and I personally have been approached by at least half the 
pilots who have said it is hard to say where it will be when 
you actually get to the final point, but I have been caught at 
the Chicago airport, at the Detroit airport, all over the 
country just randomly sitting there reading and pilots from the 
Black Snakes and other units coming up and saying this can't 
happen, whether they are younger pilots or older pilots, and it 
is very disconcerting and very difficult.
    I would like to pursue the health angle just a second as 
well. It is my understanding that I know of at least one case 
where an individual is--and I believe the individual is 
prepared to go public but I don't know that they are so I have 
to keep this relatively vague but they have been told they have 
the flu but an outside doctor suggests that they may actually 
have been infected through the vaccination which comes right to 
the point of the health insurance question.
    In that case, for example, that person would be denied 
coverage outside because the military made one decision but the 
outside doctor believes opposite. And that is what you are 
saying. That case because the person is scared to death that 
now they will never get health coverage getting out. It is the 
type of problem that you are trying to anticipate but it is not 
unrealistic because part of numerous people's concern about 
speaking out is there are people as pointed out by Captain 
Panzera may not have the career options that you have. Would 
you agree with my vague but specific summary?
    Lieutenant Colonel Heemstra. Yes, sir. That is the conflict 
that we have and we are trying to anticipate and rather than 
get put into that conflict and admitting that, you know, taking 
the shot and losing coverage the guys are just taking the 
easier option and that is just to not take the shot and not 
risk your health.
    Mr. Souder. And I would say on behalf of the airline 
industry given the type of lawsuits that prevail today and the 
cost of these coverages it is not an illogical position for 
them to ask given the fact of the documented cases that are out 
there, documented at least that there is a correlation with the 
shot taking and illness developing, it is not absolutely clear 
what the shot is causing and so on, but the coincidences are 
fairly substantial as we have heard through numerous hearings.
    Captain Panzera. Mr. Souder, one other aspect to this that 
is kind of important is when insurance--I have contacted a 
couple of insurance companies and I have asked them will you 
tell me your position on if someone gets a shot in the military 
and they have an adverse reaction and now they are a health 
risk or something, where do you guys stand? I will get back to 
you. Well, I assume so. They haven't really read into it.
    Well, I want to see the look on their faces when they call 
and find out that there is indemnification for the company that 
made this. How would they feel about any pharmaceutical company 
giving out any kind of vaccine or medicine or anything with 
indemnification.
    Mr. Souder. One thing I believe is the benefit of the doubt 
ought to go to people who have volunteered to serve their 
Nation. And I am afraid with the legal proceedings and tying 
this up that the benefit of doubt may not go to the servicemen 
which is what everybody is concerned about at least in the 
short term. Much of the focus has been on the fourth and fifth 
shot. Colonel Heemstra, would you have had a different approach 
if there had only been three shots?
    Lieutenant Colonel Heemstra. No, sir. Based on what 
research we have done and what we know about the safety and 
efficacy I wouldn't have taken shot one probably based on that. 
Based on the fact that we have time to fight this thing when 
Dr. Nass came out I told my group of pilots there that if the 
balloon went up and we had to go fight a war, I would take the 
shot tomorrow in the deployment line. So my patriotism and my 
commitment to my country would take precedence but as long as 
what we know about it and I have time to fight it, I would 
choose not to take the shot.
    Mr. Souder. We have alluded to it, have you had similar 
fears or have you heard similar fears of any of the other 
vaccinations that you have taken?
    Lieutenant Colonel Heemstra. No.
    Mr. Souder. So this is an extraordinary event, not 
something that has--are there concerns about the interactions 
and our lack of study that will be required in the private 
sector about the interactions between the different 
vaccinations?
    Lieutenant Colonel Heemstra. Yes, sir. There is a hugh 
concern knowing that $320 million has already been allocated 
for multiple vaccinations and then seeing that this is an ugly 
precedent where FDA approval of this drug is in name only when 
we are getting a shot that is not the original. It is a 
different manufacturing process, a different vaccine, and 
seeing that corners were cut and arms were twisted and all of a 
sudden we call it FDA approval. And if you take multiple 
vaccinations, first of all, just the cocktail effect itself is 
scary but then to know that we weren't treated as first class 
citizens with FDA rigors applied and there is huge fear of 
that.
    Mr. Souder. While the risk to the general population may be 
different than pilots going into the Middle East, the fact is 
that it is disappointing in my opinion that we don't have as 
high or higher standards for people in our Armed Forces than we 
do in the civilian population when we ask them to put their 
lives at risk for our country.
    If I may ask one additional question to Sergeant Mangieri. 
You said in your testimony that you felt that we weren't 
aggressively pursuing other options to anthrax, for example, 
mentioned one of the problems that we have seen repeatedly as I 
saw in one of the--demonstrations out at Fort Wayne while they 
were preparing to go overseas. They were doing a how you put 
the uniforms on and have tried those uniforms on and you 
suffocate particularly if you would be in the desert, not to 
mention Fort Wayne in the summer, but that there is--and as we 
visited the Middle East in this subcommittee and looked at a 
number of the anti-terrorism things and at Prince Sultan Air 
Force Base where there has almost in my opinion been an 
overreaction on forced protection after Khobar Towers and 
people were held accountable when in actuality they were trying 
to move from the time they saw the vehicle pull up to the 
fence.
    But now it is like alarms are going off every 5 minutes if 
a piece of sand blows up against the fence. Everybody is so 
hyper defensive. How do you get this balance and do you believe 
that part of the hopes of anthrax was that it would reduce the 
other requirements need for protection because if you are 
immunized and then you made the statement that you didn't 
believe that would do the job. Why?
    Sergeant Mangieri. Well, first of all, if you are going to 
immunize us, immunize us with something that works. No. 2 in a 
bio-warfare environment you have to have a bio-warfare plan and 
that bio-warfare plan consists of several factors. No. 1 is a 
strong command and control structure where when a missile comes 
into an air base and it explodes people know where to go, 
people know how to put on their gear. They put it on in a safe 
and effective manner and in a timely manner.
    The other part of bio-warfare planning is medical 
contingency that may happen after somebody gets infected with 
maybe the anthrax bacteria. I can tell you from my experience 
field level medics don't know anything about seeing the 
symptoms of anthrax. They don't even know how to administer 
atropine properly. We are not good at chemical warfare defense. 
We are not good at it because the bottom line is there is no 
command emphasis for this type of training.
    Just to give you an illustration, in the Air Force 5 years 
ago there was a realignment and we used to be a wing program, 
the chemical warfare people. We were moved to the civil 
engineering squadron. Now we are just a small component of 
that. We need to go back onto the wing command and be the wing 
commander's program so people take it seriously again. The mask 
that they give is the MCU2P mask in the Air Force will protect 
you against all known chemical and biological agents.
    Now that initial strike that happens out in the field when 
a missile comes in, you will have your gear on and you will 
have your gear on maybe 2 or 3 hours until they find out what 
exactly is out there. OK. Once that happens they take the 
necessary actions to eliminate that threat. But what I am 
trying to say is they are using the vaccine as the only thing 
that is going to protect us against anthrax and you cannot--
that is a very dangerous thing to do. We need a bio-warfare 
plan and we need instead of training people--on my base we 
train people for 3 hours once a year, once a year.
    It is a 3-hour presentation that I do. I have to do it 
quick because I have 600 mobility members on my base. I do it 
once a year. Once a year people forget how to even put on their 
mask. If the threat is so imminent we should be doing it once a 
quarter. Secretary Cohen said if the threat is so imminent if 
it is going to happen and when it is going to happen, why 
aren't they putting a bunch of money into chemical and warfare 
defense--chemical and biological defense.
    Mr. Souder. In other words, you are saying you are getting 
a mixed message. On the one hand it is so imminent that this 
vaccine has to be mandatory. On the other hand it is not so 
imminent that you are not doing other things that you would do 
if it was imminent.
    Sergeant Mangieri. That is correct, sir.
    Mr. Souder. And do you believe from looking at the type of 
chemical and biological threats that even if anthrax had a 
proven record of working and was applied appropriately and 
didn't have side effects, what percentage of the risks do you 
think it would cover?
    Sergeant Mangieri. I would say it would cover you maybe in 
a 30 percent risk if it actually worked. You want to couple 
that with your protective suit and you want to couple that with 
some good command and control structure, good intell, but I 
would say maybe a 30 percent not being a medical individual but 
seeing it as the whole plan of everything. If it weren't there 
is a possibility people want to take it. See, the problem here 
is that this is not the last one, you know. There are other 
biological agents that are out there that they are developing 
vaccines for.
    I don't personally believe we need to be vaccinating 
against every individual agent. We need to come up with a 
system where we can maybe booster our immune systems where we 
can effectively eradicate all biological weapons because our 
bodies would be able to repel them. There are 50 known 
biological agents out there. Up in New York we are having an 
encephalitis attack. Well, you know, Venezuelan equine 
encephalitis is a biological warfare agent. Japanese 
encephalitis is a biological warfare agent.
    There are so many different types of strains of anthrax, 
smallpox, Marburg, which is a close relative to Ebola that the 
Russians developed back in the 1980's and 1990's. We have got a 
lot of agents out there. Are we going to keep sticking 
ourselves every time that we feel that there is an imminent 
threat? I don't think that would serve our members well. I 
think we are going to have some serious health problems if that 
happens.
    Mr. Souder. Well, thank you all for your willingness to 
speak out. This is just an incredibly difficult question when 
you are in the line of command and trying to figure out how to 
do it but I doubt quite frankly that our enemies will cooperate 
by just using the biological or chemical thing that we are 
prepared for. So hopefully we can develop a flexible plan that 
can meet the critical need of retention and recruitment. So I 
thank you all for your willingness to speak out.
    Mr. Shays. Thank you, Mr. Souder. We are going to recognize 
Mr. Burton but let Mr. Metcalf know that when Mr. Burton is 
done that we are going to call on him. Mr. Chairman, you have 
the floor.
    Mr. Burton. Real quickly I just wanted to know again why 
did they not allow you to re-up?
    Sergeant Mangieri. In my opinion--they would not give me a 
reason. My opinion is that because of my outspoken--being an 
outspoken opponent of this vaccine in the public eye that is 
the reason I believe I was denied re-enlistment. I am not 
bitter to them, to Stewart. There are some good people up at 
Stewart. I commend Brigadier General MacGuire for making a real 
tough decision the other day stopping the vaccine after the 
refrigeration had destroyed it when we had the hurricane up 
there.
    I was denied re-enlistment because basically it got too hot 
for them, I think. I came to them actually in the summer and I 
said to my support group commander I am going to take this 
outside on non-duty status and fight this thing. He had no 
problem with as long as I didn't bring bad press to the 105th 
and I agreed with that. I think that he thought I was going to 
be in some little local newspaper. What happened was I went 
nationwide in a couple of weeks and I was all over the place. 
Then I was doing radio interviews, newspapers, television, 
everything, and that affected them.
    Mr. Burton. I think everybody on the panel has been 
impressed with your knowledge of a lot of the problems that you 
face in this kind of warfare situation and it seems to me 
because of a difference of opinion on something like this to 
lose that kind of talent. It is a sad thing. Thank you.
    Mr. Shays. Thank you, Mr. Chairman. Mr. Metcalf, thank you 
for participating. It is nice to have you here.
    Mr. Metcalf. Thank you very much. Can I ask two quick 
questions?
    Mr. Shays. Yes. And, Mr. Jones, we are going to you next. 
We are going to you next after Mr. Metcalf. Thank you.
    Mr. Metcalf. It has been reported to me by Reserve pilots 
who have contacted my office that if they choose to leave 
rather than to take the anthrax vaccine they better not state 
that that is why they are leaving. If they list another reason 
then they won't be hassled. If they list anthrax as the reason 
they face a fight. Could any of you respond to those remarks? 
Do you know anything about that? OK, thank you.
    Mr. Shays. I am sorry. Mr. Jones, you have the floor.
    Mr. Jones. Yes, Mr. Chairman, and I will be very brief. I 
want to thank each one of you in panel I first for your service 
to our Nation and second for being here today because this is 
an issue as each one of you have said that affects the morale 
of our troops, also retention and also readiness, and I don't 
know three words that mean--are any more important to the 
defense of this Nation so I want to thank you for stepping 
forward.
    And again I want to very briefly say, Mr. Chairman, because 
I want to hear panel II that in April of this year I wrote a 
letter to Secretary Cohen after I met with those five officers 
at Seymour Johnson Air Force Base. And I asked the Secretary if 
he would to please put a halt or moratorium on this vaccination 
until studies could be completed so that our troops did feel 
that this was a quality injection and also it was necessary.
    He did write me back about a month later and said that he 
felt the justification, which I respect his opinion even though 
I don't agree, was to go forward with the vaccination and so 
therefore I put a bill in as did Chairman Gilman, chairman of 
Foreign Relations. His deals with a moratorium. Mine deals with 
a voluntary system. I guess in closing what I would like to say 
that this issue--maybe I would ask each panel because you 
probably have answered this in your testimony as well.
    It is a question, I just came back as you might have seen, 
as it relates to your unit and the morale and I would like to 
go down very quickly to each one. Would you say that this is an 
issue of the utmost importance to each individual in your unit 
as it is to you, and I will start with you, I believe it was 
Major. I don't have my names before me.
    Lieutenant Colonel Heemstra. Yes, sir. It is certainly very 
important to them. Like I said, we kind of have just an acting 
squadron commander at this time. I know there are several 
members that have verbally said they hope that I get reinstated 
so that we do have some strong part-time leadership and can 
move forward in the direction that we were originally going. 
So, yeah, there is very strong support there.
    Mr. Jones. So in other words you are seeing that this issue 
is growing as a concern with your fellow man and fellow woman 
in your unit. This is something that is continuing to grow as a 
concern, is that right?
    Lieutenant Colonel Heemstra. Yes, sir. That originally was 
a very powerful effect on the morale because we were originally 
scheduled to take the shot in July. Now it has been put off so 
now probably what is affecting the morale is the uncertainty of 
when are they going to stick us or are they going to surprise 
us when all of a sudden we show up for October drill.
    And for a fighter unit, you know, accidents happen with 
airplanes when morale gets in the tubes as a wing safety 
officer, so it is definitely concerning to see the morale, to 
see guys rather than stepping to the airplane to go fly their 
missions and thinking about what they are going to go do in the 
cockpit they are concerned about the shot program and what the 
latest is and what is going on. It is a huge distraction.
    Mr. Jones. If I may go down the list, and obviously you 
don't need to be repetitive but if you can add something too.
    Major Hansen. I think it is an issue in our squadron and I 
think people are afraid to talk about it and step forward.
    Captain Panzera. It is the issue of the day. It is the 
conversation on everybody's mind. It is the talk of the town 
and you go into the unit you can't go more than 2 minutes 
without hearing about it, and that is the pilots, the 
navigators, the load masters, our engineers, our support 
personnel, our folks who are in maintenance. They see the 
things going on around them and it really bothers them and all 
they want is reasonable assurances and they can't seem to get 
those or at least they don't feel like they are getting any of 
that.
    And this is based all upon their own research. You know, 
none of the folks that I talked to are anti-vaccines and they 
are not resistent to orders. They will take the hill. They know 
there are bullets coming at them. They will fly in the sky as 
they are knowing there are missiles coming up to meet them. But 
this? Why?
    Sergeant Mangieri. Yes, Congressman. I am here on behalf of 
my friends and co-workers at Stewart Air National Guard Base in 
New York. I am not here on behalf of myself. And the reason why 
I am here is because I have had several of my friends, dozens 
and dozens and dozens have called me in the last couple of 
weeks and, please, I had one young female who was interested 
in--she is newly married. She is interested in getting 
pregnant. Tears coming down her eyes saying, Bill, help us. Do 
something.
    I do not want to see that welt on her arm. If you have ever 
seen a welt from an anthrax vaccine on your arm. I had one on 
mine on January 16, 1991. It is nasty. I don't want to see that 
welt on her arm. And it is so important that I am willing to be 
the sacrificial lamb today, put my career aside because of my 
friends.
    Mr. Jones. Thank you. Mr. Chairman, just one statement and 
I will close. As we further looked into this, I am still amazed 
that the State Department only requires this vaccine of their 
employees and that it is voluntary. And I think that the State 
Department when the men and women at our Embassies they are 
definitely in harm's way to a certain degree if there should be 
a terrorist attack or some type of biological or chemical 
attack.
    And yet I wrote to Secretary Albright and we were having a 
difficult time getting a response so I enlisted the help of the 
chairman of the Foreign Relations Committee and I think his 
letter, which is the same letter, we will get a response as to 
how they came to a determination that for their employees it 
should be voluntary instead of mandatory. So I close with that 
and thank you again for this opportunity.
    Mr. Shays. Thank you. We loved having you here and if you 
have other questions you are more than welcome as well. Mr. 
Souder.
    Mr. Souder. I would like any response that Congressman 
Jones gets from the State Department to be included into this 
and if they don't get a response to us to formally request that 
if this is our last hearing on it because that is a real 
question. If the State Department--we have had Embassies bombed 
by terrorists, if in that region they are voluntary why would 
the military not be?
    Mr. Shays. Let me just say potentially last hearing before 
we issue our initial report but we intend to monitor this and 
follow it and then work to achieve whatever our report 
recommends with further hearings to reinforce it or to clarify 
it. I would like to just proceed for a few more minutes. 
Sergeant Mangieri, I understand what you have done and I 
respect it, and I think the bottom line is that you realize 
there are consequences because you went one step beyond.
    I have someone in my family who I deeply respect who had 
two tours in Vietnam and his following these hearings made the 
point that you got to have--this is the issue of mandatory 
versus voluntary, just trying to have me a little more 
sympathetic for the fact that when a commanding officer has to 
make a command, he has to make sure there is no doubt that the 
command will be followed by everyone. So in a way I 
tremendously respect your situation but I think that if you are 
candid with me you realize that you went because you felt out 
of conscience you had to take that step.
    And I think I am hearing you say that you recognize why you 
weren't asked to re-enlist and accept it as part of the code of 
the military. Am I reading too much into this or not?
    Sergeant Mangieri. No, sir, you are actually not. I believe 
in the institution of following orders. I deeply believe that. 
I think it is an institution that has kept our military 
together for so long. I believe there is a line in the sand you 
have to draw. You can send me anywhere in the world but that 
line in the sand gets drawn when you are trying to inject me 
with poisons, that anthrax bacteria, in my system. I am not 
bitter for what they did. If I was a full-time individual in 
the DOD, my reasons or my stance on this may be different, 
drastically different.
    If I was 2 years outside of retirement and I had to get 
this shot but I wanted my retirement honestly I got to tell you 
it may be different. I guess what I am saying is basically that 
I am not bitter against them. If I was commander of the Stewart 
Air National Guard base and I had a young man going out and 
talking about this issue in the mass media maybe I would have 
made the decision to fire him. I can honestly say that.
    Mr. Shays. But the value is that in a sense you are 
practicing civil disobedience and then willing in a sense to go 
to jail, in this case to be let go, but you are serving a role 
that others now may not have to take. And we are all learning 
the consequence of the mandatory program. We have lost you. I 
want to ask Lieutenant Colonel Heemstra, and just preface it by 
saying again that we had a hearing on those who already took it 
and refused or were ordered to because they were in the process 
and they left.
    And we have testimony that people left because of the 
anthrax program, and then we had people that came in because of 
the consequence if they are feeling ill and not getting any 
response which would reinforce why others may choose not to 
take it because if they do have an adverse response even if it 
is a few if you are that person and the government is not 
there, the one that ordered you to take it not there to help 
you, then we certainly can understand other's reluctance.
    You are in a situation where you are right at the point 
where this is being required. In the California Air Force 
Reserve, those units are going through this program, the 
Connecticut Air National Guard, they are going through this 
program, the Delaware Air Force Reserve is going through this 
program, the Indiana National Guard is going through this 
program, the Washington Air Force Reserve is going into this 
program, the Wisconsin National Guard is going into this 
program.
    Now I asked you a question which I was surprised by the 
answer but then I realized I was asking the wrong question. You 
can't testify that people have left at this time because this 
process is being initiated in the Indiana Air National Guard, 
is that correct? There haven't been many who have left because 
the program is just beginning.
    Lieutenant Colonel Heemstra. Sir, I would have to look at a 
roster but come to mind there is two that I know that have left 
just in I think the last month. And one I know--like I said, on 
a daily basis I remember hearing him say that that is the last 
straw, the anthrax shot. So one I can say for sure left because 
of that. The other one I----
    Mr. Shays. Let me just make this question. But the issue is 
are you aware of--because in your testimony you imply that 
while there may have been only one or two you are warning us 
and the military that you suspect a good number more will leave 
if they are required to take the shot.
    Lieutenant Colonel Heemstra. Yes, sir, if they follow 
through on what they have said when Dr. Nass came out and I 
guess that has been my position all along and I felt it was an 
obligation to inform my chain of command that we have a huge 
attrition problem of which this is an example.
    Mr. Shays. And if you are finally at the point where you 
have to decide to take the shot or not, you have already given 
up command, have you determined in your own mind what you will 
do?
    Lieutenant Colonel Heemstra. Yes.
    Mr. Shays. No, I am not going to ask him. I just asked you 
in your own mind if you decided what you will do.
    Lieutenant Colonel Heemstra. Oh, yes, if it is--it will 
probably be a different decision based on if my country is 
calling me to go to war versus we are going to do a mandatory 
vaccination just because we think there is a threat out there.
    Mr. Shays. Do you want to share what you are going to do or 
not? I am not asking you to tell us what you are going to do 
but if you want to.
    Lieutenant Colonel Heemstra. Yes. If the balloon went up, I 
am a patriot and I am committed to my country, if the balloon 
went up this week and they had a deployment line I would go 
take the shot tomorrow so I would sacrifice my health concerns 
and my airline career and whatever future. I would risk it all 
for my country. And if that didn't happen and we just had a 
mandatory shot in October then I am not going to risk those 
things.
    Mr. Shays. OK. I appreciate that. And I bet you are not 
just a few like the military has applied and I just wanted that 
for the record. I am happy to have you clarify anything you 
like.
    Mr. Souder. One thing that--correct me if I am wrong. 
Partly what happened is they were going to go through with the 
mandatory. They moved to voluntary after a short period when 
everybody had to stay in the forces which kept--we would have 
had attrition most likely last spring had they not done--I am 
sorry, I forget the term, that nobody could leave the Armed 
Forces.
    Lieutenant Colonel Heemstra. Stop-loss in July.
    Mr. Souder. And then there was a push to do it voluntarily 
so a number of people felt that perhaps particularly after what 
happened to Colonel Heemstra that it could affect their 
careers, took a voluntary test, so it is not incorrect--I mean 
it is somewhat incorrect to say there hasn't been a process 
going on at Fort Wayne because more than normally would have 
gone forward in a voluntary test. It is also, as I understand, 
if everybody carried through who said that they wouldn't take 
it, we would be devastated. We wouldn't have an air base.
    Now as a practicality that doesn't necessarily mean they 
have another job lined up so it is very difficult to estimate 
what precisely is going to happen but while we haven't had 
mandatory the voluntary pressure has gone up some. And part of 
my concern with Armed Forces as every base like Fort Wayne, 
which is Delaware, Kalamazoo, the gentlemen who have spoken out 
here, potentially makes their base vulnerable. And it is very 
important to have assurances from the military that there is 
not going to be retaliation because that also sends signals 
throughout the country when those bases come up and something 
happens. This is a very delicate process we are going through.
    Mr. Shays. It is very delicate and also very important. And 
you kind of confirmed what a witness we had when we were 
dealing with Gulf war illnesses and he has a very debilitating 
weakness, an Air Force pilot, I believe, and he said that 
knowing what he knows now he believes he got his illness from 
the Gulf war, totally debilitating. He said if he was ordered 
to do it again, he would do it again and serve and that is 
really what you are saying. But during peace time you are 
saying if given the option you will choose another.
    Lieutenant Colonel Heemstra. Yes, sir. And there is also a 
middle choice there that some people wouldn't--if the balloon 
went up and we were going to far tomorrow they would not--they 
believe strongly about the shot and they will take whatever 
consequences and choose their future help.
    Mr. Shays. Thank you. Let me allow each of you to make a 
closing comment and then we will get to our next panel, and 
again we appreciate our panel for being so willing to let you 
go first and to hear what you had to say. Why don't we start 
with you, Sergeant?
    Sergeant Mangieri. All I would basically like to say is 
that I know this process through Congress is going to take some 
time to go through committee and finally get on the floor if it 
does but we have to keep in mind there are thousands of people 
getting inoculated every month as we speak. There is probably 
somebody getting inoculated with anthrax vaccine right now, as 
a matter of fact probably. So we have to be committed to make a 
fast decision because if we allow the process to drag out like 
it normally does, we may already have inoculated most of the 
force before we either put a stop to it and hold back and see 
how we can fix this thing or make it voluntary like Mr. Jones 
is trying to do.
    There are people getting inoculated right now and we got to 
worry about those people. So I just urge you good folks to try 
to step up the process as fast as possible so we can get this 
hearing. Thank you.
    Mr. Shays. Well taken. Yes, sir.
    Captain Panzera. The folks in the Air National Guard are 
some of the best patriots you will ever meet and I just love 
the opportunity to be able to work with them, fly with them, go 
to Antarctica with them, and do the kinds of things we do. We 
are in the forefront of a lot of things nowadays. We are spread 
all over the world.
    We go to many deployments. We also carry the torch, so to 
speak, with the active duty but again they have options they 
can exercise. It is amazing to me that so many of them who lead 
other lives outside of the Guard are so willing to come in on a 
weekend and put on a rubber suit and sweat themselves to death 
in that thing as they train or to come in and just routinely go 
over some of the other mundane classes. But you know they are 
not so mundane. They know the importance of them.
    They know the severity of the issue at hand too and this is 
not something they are entering into lightly or on whimsy. It 
is deeply held convictions based upon the evidence that they 
have seen both from the DOD and from sources they have 
researched. And we are not conscripts and we are not forced 
into this and we submit many of our rights and many of our 
abilities, you know, that citizens have freedom wise to do 
these such things. It is just the way they are going to be 
treated is the question they are being asked--that they are 
asking, I should say.
    So H.R. 2548 is highly important to them. They looked at 
Mr. Jones' bill as well and they said--believe it or not, sir, 
this is some of the concerns that were raised, well, you know 
what, if they would just make it voluntary they are going to 
come back and bring it in another way later. They didn't like 
that thought at all. Not that your effort wasn't even a 
concerned one. It most assuredly was. But if this is heavy on 
the minds of these folks and my specific unit being so unique, 
can we really afford the kind of risk we are taking to lose all 
these great folks?
    Mr. Shays. Thank you, Captain. Major.
    Major Hansen. Yeah, I just want to repeat like how long are 
we going to have to wait. And also I think if I am remembering 
correctly one of the bills was a moratorium said that--the 
moratorium on the vaccine and that people would be able to be 
reinstated into the military with whatever benefits. I don't 
know if I am paraphrasing that correctly. I think if that--you 
can't wait too long on that because you are going to have a 
hard time finding those people to even be willing to come back 
after the way I guess they felt they have been treated so just 
keep that in mind, you know, about the waiting time and getting 
people back.
    Mr. Shays. Thank you, Major Hansen. Colonel Heemstra.
    Lieutenant Colonel Heemstra. Yes, sir. Thank you. I just 
want to describe the dread and the fear that is out there on 
the flight line in the squadron. People are afraid. They are 
angry at being put in this difficult position, you know, where 
they are to make life-changing decisions, life-threatening 
consequences possibly so it is a very tough issue. We have 
already paid some pretty good costs and there are some future 
huge costs coming unfortunately.
    And I would just like to comment on the background with the 
Air Force Academy, the code, the honor code, the ethics classes 
we had. This is a perfect case study where it is an extremely 
complex and very tough issue how to take this policy and apply 
it to yourself and then relate to your superiors and then 
relate it to your subordinates and still get--it is too bad 
that we can't be concentrated on the mission what we are really 
supposed to be about that this is a huge distraction from that 
but I would just ask you to--I think it is important that our 
basic human rights are protected and that we work along those 
principles and treat us like first class citizens.
    Mr. Shays. Well, you all have provided a wonderful service. 
You have been very articulate and your testimony has been 
moving for everyone here including your superior officers, I am 
sure. Thank you so much for coming. Our next panel is Charles 
Cragin, Acting Assistant Secretary for Reserve Affairs, 
Department of Defense, accompanied by Major General Paul A. 
Weaver, Director, Air National Guard, Department of Defense, 
Colonel Frederick Gerber, Director, Health Care Operations, 
Office of the Army Surgeon General, Department of Defense, 
Colonel James A. Dougherty, Air Surgeon, National Guard Bureau, 
Department of Defense.
    Some of you have appeared before us before. We welcome your 
testimony. Our committee has a great deal of respect for what 
you all are trying to do on behalf of your country and thank 
you very much. We are going to have you--if you would stand and 
we will swear you in and then we will hear your testimony.
    [Witnesses sworn]
    Mr. Shays. Let me say, Mr. Cragin, that really you have as 
much time as you want. We had four people testify. They ended 
up using 10 minutes each almost in every instance. I am happy 
they did because they had things we needed to hear so we are 
going to put the 5-minute on. We will put the 5-minute on 
again. If you want to go another 5 minutes, we will let you do 
that. And then we will start with questioning from the 
chairman.

   STATEMENTS OF CHARLES CRAGIN, PRINCIPAL DEPUTY ASSISTANT 
 SECRETARY FOR RESERVE AFFAIRS, DEPARTMENT OF DEFENSE; MG PAUL 
A. WEAVER, DIRECTOR, AIR NATIONAL GUARD, DEPARTMENT OF DEFENSE; 
COL. FREDERICK GERBER, DIRECTOR, HEALTH CARE OPERATIONS, OFFICE 
 OF THE ARMY SURGEON GENERAL, DEPARTMENT OF DEFENSE; AND COL. 
    JAMES A. DOUGHERTY, AIR SURGEON, NATIONAL GUARD BUREAU, 
                     DEPARTMENT OF DEFENSE

    Mr. Cragin. Thank you, Mr. Chairman. I think in the 
interest of time what I will try to do is to abbreviate my 
opening remarks and make those remarks on behalf of my 
colleagues and myself and then turn to you and your colleagues 
and hope we can respond adequately to your questions. First 
off, let me take this opportunity, Chairman Shays, to thank you 
again for inviting me to participate in one of your very 
important oversight hearings. My colleagues also appreciate the 
opportunity to join you.
    I got to tell you I have listened very attentively and with 
great interest to the testimony of my Reserve colleagues 
because they truly are my Reserve colleagues. I retired as a 
captain in the Naval Reserve last year after serving 7 years as 
an enlisted man and 30 years as an officer in the Reserve 
community. And I pretty much spend every weekend traveling 
around the world visiting with and talking to members of the 
Guard and Reserve who, as my colleagues have indicated to you, 
are deployed throughout the world serving and representing 
America.
    And so their comments were of great interest and I tell you 
that I listened with great interest to the comments of all the 
men and women of the Guard and Reserve who make up 50 percent 
of America's total force today. I visited Sergeant Mangieri's 
unit up at Stewart just a couple of weeks ago and had an 
opportunity to talk with a number of personnel at that unit 
including the commanders. In fact, come November 28 I will be 
flying to Christ Church to meet with the 109th and head down to 
Antarctica with Captain Panzer's organization.
    So we try to see the men and women of this force where they 
work and understand their concerns and know that they are real. 
As you mentioned, I am joined today by colleagues who have 
perspectives to bring to bear in response to your questions. 
Major General Paul Weaver is the Director of the Air National 
Guard and before that served as the Commander of the 105th at 
Stewart in New York. Colonel Fred Gerber is the Director of the 
Army Health Care Operations, and as you requested, Colonel 
James Dougherty, the Air Surgeon of the National Guard is also 
with us today.
    And we welcome the opportunity, Mr. Chairman, to discuss 
the Department of Defense's efforts to protect reservists from 
what we know to be a very real and a growing threat of 
weaponized anthrax. As I mentioned over the past weeks and 
months, I have had many conversations about the anthrax 
protection program with the chiefs of the Reserve components 
including Major General Weaver and also with National Guard and 
Reserve personnel in the field. And let me give you a sense of 
what I am hearing, what they are telling me.
    First and foremost, recruiting and retention trends do not 
show any substantial change as a result of the anthrax 
protection program. In addition, we have not seen a sufficient 
number of refusals or departure of personnel attributable to 
concern over the anthrax vaccine that would degrade, impair or 
compromise mission capability or operational readiness. Mr. 
Chairman, in spite of the anecdotal reports, from my personal 
conversations I can tell you that morale remains high and that 
the men and women of the Guard and Reserve are very proud of 
the service that they perform for their country.
    Mr. Chairman, we have routinely an annual turnover in our 
Reserve forces of around 18 to 20 percent and we do not see any 
impact that can be directly attributed to the anthrax program. 
Except in a very small number of cases concern about anthrax 
shots is not the determining factor behind a member's decision 
to withdraw from military service. Those who decide to leave, 
they do so for any number of reasons including a strong 
economy, and pressures from civilian jobs and employers. This 
is an issue that Secretary Cohen has been very concerned about 
for the last 2 years as we use this force much more. In 
comparison 4 years ago we were using it at the rate of about a 
million duty days a year and we are now using this force at the 
rate of about 13 million duty days a year so you can imagine 
the effect upon employers.
    Mr. Shays. The million was when, what year?
    Mr. Cragin. About 4 years ago. In fact, if you take--if you 
discount the blip, so to speak, from Desert Shield, Desert 
Storm, when we called up 260,000 members involuntarily to 
active duty from about 1989 until the last 3 years we were 
generally with even a larger Reserve force, we were generally 
using this force at the rate of about a million duty days a 
year. We are now for the third year in a row, and I would 
suggest it is going to remain reasonably constant for the 
foreseeable future, these men and women are performing duty at 
the rate of 13 million duty days a year. That is the equivalent 
of adding about 35,000 people to the end strength of the active 
force. So there is a significant operational temp out there and 
it is truly a paradigm shift from the days of the cold war when 
everyone sat and waited for that catastrophic event when they 
would be called up.
    In fact, today we are calling the men and women of the 
Guard and Reserve force involuntarily to active duty under 
three separate Presidential reserve call-ups, and I think 
Chairman Burton alluded to the tempo of this force today. We 
have, in addition to that, personal and family considerations. 
A great deal more time is asked of the men and women of this 
Guard and Reserve force today than ever in the past. But I have 
talked in just the last few days to commanding officers of many 
of the units that have been experiencing challenges regarding 
the anthrax protection program, and each of them has personally 
assured me unequivocally that the units remain fully mission 
capable and they are ready for service.
    And as I said, while it is true that some service members 
have concerns about the anthrax protection program, the vast 
majority of our personnel currently requiring vaccination have 
taken the anthrax shots. And the people that are currently 
required to take the vaccination are those individuals who will 
be deploying to high threat areas either in Southwest Asia or 
in Korea. We are going to inoculate this force, the total 
force, in three phases, and we are currently only inoculating 
those individuals actually deploying to the high threat areas.
    The second phase will be what we characterize as early 
deployers, and then the third phase which will begin in the 
year 2003 will be the remainder of the force. As you can see 
and as you know, members of the Guard and Reserve component are 
participants in each of those three phases of the inoculation 
program. Most of the people have taken the shots and many have 
done so because they understand and appreciate that the anthrax 
vaccine is the best option and the right choice for protecting 
our forces from this valid threat.
    As of today, more than 27,000 selected reservists have 
already begun anthrax vaccinations. I should point out, Mr. 
Chairman, that I know that you have received data that I 
transmitted to you that might indicate a different number of 
reservists have received inoculations and that is because that 
data is aggregate data which includes members of the Individual 
Ready Reserve as well as members of the Selected Reserve. The 
Selected Reserve is essentially that group of men and women who 
deploy, who train regularly month to month and who perform 
annual training periods.
    The IRR are individuals who do not have those training 
requirements. Some of them may come to the IRR directly from 
active duty. Others come from the Selected Reserve community 
and therefore there may be a bit of a disconnect in our 
numbers, but we have inoculated essentially to date about 
27,000 Selected Reserve members. And overall, nearly 340,000 
men and women in the force have received over 1.1 million shots 
to date. Unfortunately, we have not been able to convince 
everyone about the wisdom and necessity of the program, and as 
a result as you have rightfully observed this morning, we have 
lost some valuable people, and, candidly, we may lose more in 
the future.
    Although that would be regrettable, it would not be nearly 
as tragic as the losses we would incur in the event of an 
anthrax attack against unvaccinated personnel. Let me take a 
moment now to discuss how vaccinations are tracked and reported 
because I know that was a matter of interest to you in this 
hearing. Anthrax vaccination data for the total force can be 
found in a system that we call the Defense Enrollment 
Eligibility Reporting System. The acronym is DEERS. This serves 
as the department's master repository for such information.
    Each service maintains its own tracking system which feeds 
into the DEERS and although DEERS currently indicates 
significant shortfalls in our efforts to meet vaccination time 
lines closer analysis of the shot tracking data contained in 
the services systems reveals a much more positive picture. The 
discrepancy between DEERS and the service-specific tracking 
systems is primarily due to data recording and transmission 
systems coming from the individual member who gets their shot 
and gets notification of that shot on their personal shot card 
and their personal medical record which remains with their 
unit. That information feeds into their service-specific 
tracking system which then ultimately feeds up to the 
repository, the DEERS system.
    Most of the overdues are the result of delayed reporting 
rather than lack of timeliness of vaccination. I don't know 
whether you noticed my shot card, Mr. Chairman. I have had four 
of the anthrax shots so far. Each serviceman and woman gets the 
shots recorded on their individual shot card as well as their 
individual medical record.
    Mr. Shays. Now you put us at a disadvantage. Now we are 
going to have to put that in the record.
    Mr. Cragin. Well, I will be happy to provide it to you. I 
am sure that they will give me a duplicate if you feel it is 
necessary. Commanders in the field have the ability to insure 
compliance and timeliness of vaccination by using their 
service-specific systems and these systems provide reliable, 
accurate and up-to-date information that is being used to track 
vaccination time lines. In an effort to insure that service-
specific tracking data is more accurately reflected in DEERS, 
we are in the process of merging all service-specific systems 
into one comprehensive streamlined and easy to use automated 
system.
    In addition, Mr. Chairman, let me say unequivocally that we 
are committed to meeting the FDA-approved protocol for shots, 
and we are determined to make this vital force health 
protection initiative work. Toward that end, we have made 
substantial improvements in educating our personnel and their 
families. We have imposed quality controls that vigorously 
track the flow of the vaccine from production to vaccination. 
We have upgraded the level of medical support and information 
for those with vaccine-related concerns, and most importantly 
we have made this a commander's program, one in which leaders 
of the total force from the service chiefs on down to the unit 
level have direct responsibility and accountability for 
insuring that this new force health protection initiative is 
implemented in a timely and responsible manner.
    We are working assiduously to resolve outstanding 
challenges, and the Reserve chiefs and I assure you that this 
situation will continue to improve. We are strongly committed 
to reducing the threat to our forces posed by weaponized 
anthrax. We intend to meet that threat by providing our 
personnel with a safe, effective and FDA-approved vaccine. It 
is imperative that we continue to meet our responsibilities, 
most importantly to the members of the total force, but also to 
our Nation and to the Congress, which has oversight 
responsibility of these very important matters.
    Mr. Chairman, I would be the first to admit having worked 
with this program since its inception that we have not done a 
good job in informing the members of the Reserve components 
both as to the nature of the threat and the safety and efficacy 
of this vaccine. And I think it has been a particularly 
important challenge in the Reserve community because Reserve 
commanders don't have the comparable luxury, so to speak, of 
having their men and women with them every day of every week of 
every month. We essentially in most instances must communicate 
all of the information and do all of the training that is 
necessary in about 16 hours a month, and therefore there is a 
phenomenal challenge for these commanders to inform and educate 
the men and women of their force.
    I can also tell you that there is a great deal of rumor 
that in many instances is difficult to get in front of. I 
listened to a number of questions of you and your colleagues 
concerning airline pilots and their concerns that the 
Lieutenant Colonel was referencing. And I recently had an 
opportunity to talk to flight surgeons who work for the Airline 
Pilots Association who told me that they were receiving so many 
calls from members of the Guard and Reserve who were pilots 
working for the airlines inquiring about anthrax that they 
ultimately developed their own webpage which they could refer 
airline pilots to gather this information. That webpage is 
called Virtual Flight Surgeons, and it is located at 
www.aviationmedicine.com/anthrax.htm.
    And you may be interested to know that in that webpage they 
have a section that says for those pilots whose concerns are 
not addressed in this section or other parts of this page, 
contact VSS through our anonymous confidential encrypted 
questionnaire and we will attempt to verify any responses from 
primary sources before responding to inquiries. Then they talk 
about rumors. Rumor one, the FAA will revoke my medical 
certificate if I receive the anthrax vaccine. False. Dr. Warren 
Silberman, manager of the FAA Aeromedical Certification 
Division, confirms that receiving the anthrax vaccine does not 
affect a pilot's medical certificate.
    Rumor two, this airline will not hire me or will terminate 
me if I take the anthrax vaccine. False. VSS physicians 
contacted those airlines having full-time medical director 
positions, medical consultants retained by the airlines, 
aeromedical pilot representatives, et cetera. Each airline 
medical director or consultant confirmed that receipt of the 
anthrax vaccine has no effect on hiring, retention, policies or 
decisions.
    Rumor three, my medical insurance carriers will drop 
coverage for conditions resulting from the anthrax vaccine. 
False, probably. Medical insurance carriers are required by law 
to provide coverage for non-preexisting conditions arising from 
legitimate treatment. The anthrax vaccine is FDA-approved for 
human use. Rumor four, my company will not authorize paid sick 
leave or disability if I have complications from the anthrax 
vaccine. False. Corporate medical directors contacted by VSS 
indicated that any legitimate medical condition that interferes 
with safe flying or medical certification is covered for sick 
leave.
    Mr. Chairman, these are just a few examples of some of the 
information that is flowing out there that presents this 
substantial challenge to the leadership of the Guard and 
Reserve in communicating effectively with their membership with 
reliable, factual information concerning this program, 
concerning the nature of the threat, and concerning the safety 
and efficacy of the vaccine that the man and women of this 
force are being inoculated with. With that, Mr. Chairman, on 
behalf of myself and my colleagues I will conclude my opening 
statement, and we look forward to being able to respond to your 
questions.
    [The prepared statement of Mr. Cragin follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.035
    
    [GRAPHIC] [TIFF OMITTED] T3501.036
    
    [GRAPHIC] [TIFF OMITTED] T3501.037
    
    [GRAPHIC] [TIFF OMITTED] T3501.038
    
    [GRAPHIC] [TIFF OMITTED] T3501.039
    
    [GRAPHIC] [TIFF OMITTED] T3501.040
    
    [GRAPHIC] [TIFF OMITTED] T3501.041
    
    [GRAPHIC] [TIFF OMITTED] T3501.042
    
    [GRAPHIC] [TIFF OMITTED] T3501.043
    
    Mr. Shays. Thank you. I am going to recognize Mr. Burton 
for questions first but I am just going to point out the 
significant challenge that you have given us. You basically say 
that there is not a morale problem and that it is overstated 
and that you don't see any significant differences between what 
happened in the past with the Reserves and the National Guard 
in terms of reenlistment and what exists now. But then in your 
written statement you say you recently spoke with the 
commanding officers of many of the units that have been 
experiencing personnel challenges regarding anthrax. The word 
many is significant and the number of units.
    The bottom line is there are a lot of units that you are 
not going to be dealing with because they don't have the 
program yet. And then you tell me that it is not a big deal and 
yet you then tell me that in dealing with the Federal Aviation 
Agency they are getting a plethora of concerns. And so I feel 
like you want it both ways. And so when I come to asking my 
questions, I can't reconcile the differences of your statements 
and then other things that you say.
    Mr. Cragin. I will try to work with you on that, Mr. 
Chairman.
    Mr. Shays. OK. I appreciate that. Mr. Burton, you have the 
floor as long as you want.
    Mr. Burton [presiding]. Thank you very much, Mr. Chairman. 
Is it common practice for the military to assume product 
liability responsibilities for a manufacturer of things like 
the anthrax vaccine?
    Mr. Cragin. Mr. Chairman, I understand that with respect to 
the indemnification letter that was provided to the 
manufacturer that was considered by legal counsel to be normal 
in the course of business practices, yes.
    Mr. Burton. So you are holding them harmless in case 
something goes wrong?
    Mr. Cragin. I believe it was with respect to certain 
litigation activities, yes.
    Mr. Burton. What if we have some people that are injured as 
a result of the anthrax vaccine, who is responsible for taking 
care of them? Is it the military and the American taxpayer?
    Mr. Cragin. Yes, sir, it is.
    Mr. Burton. So you are holding the company harmless in 
effect?
    Mr. Cragin. I don't have the indemnification letter in 
front of me, Mr. Burton. I would like to put it in the record 
and respond to that for the record if you wouldn't mind.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T3501.044
    
    [GRAPHIC] [TIFF OMITTED] T3501.045
    
    [GRAPHIC] [TIFF OMITTED] T3501.046
    
    [GRAPHIC] [TIFF OMITTED] T3501.047
    
    [GRAPHIC] [TIFF OMITTED] T3501.048
    
    [GRAPHIC] [TIFF OMITTED] T3501.049
    
    Mr. Burton. I wish you would check that out for me and 
respond for the record. I would really appreciate it. One of 
the things that was of concern to me is an article that was 
written about this company. It says that there is a Federal 
probe going on right now and that on the heels of the Pentagon 
announcing it, it doubled the sole source contract to purchase 
the vaccine from $25.7 million to almost $50 million in an 
effort to stabilize the financially troubled company.
    Under the new contract Bioport will provide about 2.3 
million fewer doses and is going to get double the money but 
2.3 million fewer doses than previously requested for a total 
of about $5.3 million. The Pentagon says the expected delivery 
still will be enough to administer the vaccine to all those who 
need it. Why are we doubling the amount of money that was 
previously agreed to?
    Mr. Cragin. Mr. Chairman, I can try to answer your 
questions. It is not----
    Mr. Burton. You don't have to answer. You can just submit 
it for the record.
    Mr. Cragin. Let me submit it for the record and also point 
out the principal deputy for acquisition and technology that is 
primarily responsible for the acquisition program will be one 
of the witnesses tomorrow before the House Armed Services 
Committee dealing with the issues of acquisition of the vaccine 
but I would be happy to provide for the record the response to 
your inquiry, sir.
    Mr. Burton. Well, the Defense Department has advanced $18.7 
million to Bioport. Bioport owes the State of Michigan $8.7 
million that has to be paid by September 4 and there is going 
to be a State investigation up there. And the former chairman 
of the Joint Chiefs of Staff is the major owner, I guess, of 
this company and that is of some concern to some of us because 
we are mandating that everybody get this anthrax vaccine, and 
Admiral Crowe, is the principal behind the company. And we are 
giving them all kinds of financial breaks and I think that is 
something that we need to look into very, very thoroughly 
because there may be more to this than meets the eye and I want 
to make sure that we are not overlooking anything.
    Let me get back to the issue at hand. You say there is no 
problem with the military. You may have heard this earlier in 
my questioning. At Travis Air Force Base 32 pilots in the 301st 
Air Lift Squadron have resigned or are planning to resign 
because of the vaccine. Now that is more than a 50 percent 
attrition rate. The Air Force estimates it costs $6 million to 
train a pilot and if that holds true you are going to lose $190 
million worth of training and over 450 years of combined 
experience in that area. What about that?
    Mr. Cragin. Chairman Burton, initially, and I get the 
anecdotal information as well as looking at the data, a number 
of people will express opinions as to intentions about leaving 
the Guard and Reserve. And as I say, we have an attrition 
process that is about 18 to 20 percent every year. All of these 
people may come and go freely. There is no obligated service 
and there are many reasons why people do that.
    Mr. Burton. Well, this is more than 50 percent.
    Mr. Cragin. Well, they had not left, sir. I mean what you 
have is apparently an anecdotal report of a number of 
individuals who have expressed an opinion. I can't validate 
each and every expression of opinion on any given day. I can 
only tell you what their commanders tell me. I can only tell 
you what the data reflects, and I can tell you that the men and 
women of the force leave for many reasons on many occasions.
    Mr. Burton. Let me just interrupt and just tell you this. 
When I was a private in the Army when a second lieutenant 
walked by I used to get the shakes and I was very concerned 
about what I said to him. I think most people in the military 
will show deference to somebody from the Pentagon when they 
come around and start asking questions. And you may or may not 
get the straight facts and if you want to believe everything 
that you hear then possibly you can and you can come before 
this committee and say those are all factual. But the fact of 
the matter is you do have a morale problem and you do have an 
attrition problem. And we have military ships and planes that 
are going wanting, and it does concern me.
    Now let us go to what the Baltimore Sun wrote just 
recently. It said that 25 F-16 pilots of the 35, 25 out of 35 
pilots, in the 122nd Fighter Wing of the Indiana National Guard 
are refusing the vaccination. Now that is accurate, is it?
    Mr. Cragin. I don't believe that is accurate. I have 
listened to the Lieutenant Colonel. We have talked to the 
commander. We do not believe that is accurate. And when the 
inoculation occurs, we do not believe that that will be the 
number. Chairman Burton, I have got to tell you, and I was the 
equivalent of a private back in 1961 and I quivered in my boots 
when that lieutenant walked by as well. This force does not 
quiver in its boots. I am out there and a lot of other people 
are out there and they will tell you exactly what they are 
thinking.
    Mr. Burton. I was just informed by the gentleman who 
represents that area, Congressman Souder, that they didn't 
voluntarily take it and the reason they didn't voluntarily take 
it is because they are very apprehensive about it. So, you 
know, they are patriotic Americans but they are very concerned 
about this and some of them probably will leave because of it. 
And then it says at Dover, DE 21 in 57 pilots are leaving the 
squadron. That is more than $100 million walking out the door. 
And when pilots do leave there is not much concern about the 
cost factor to add another pilot. What they are telling you is 
don't let the door hit you in the rearend.
    Mr. Cragin. I personally talked to the commander of the 
Dover squadron----
    Mr. Burton. And that is not true either.
    Mr. Cragin. He told me, sir, that if pilots were leaving 
more of them were leaving in frustration because of the weapons 
system than were leaving because of anthrax inoculation, that 
the C-5 aircraft were not operational a substantial percentage 
of the time, that these men and women would give up their off-
duty days from their civilian jobs and come in and be prepared 
to fly and fly the missions and not have the opportunity.
    I have Major General Weaver with me who talks to his 
commanders, Chairman Burton, on a regular basis and perhaps he 
would like to make an observation.
    Mr. Burton. Well, let me go forward with the rest of these 
questions and then he can answer if he would like. From 1996 to 
1998 the Air Force lost 369 pilots in that 2\1/2\ to 3-year 
period. It is estimated this year that it could reach as many 
as 340 in 1 year when the paperwork is processed in mid-
September. Many tracking the numbers have remained mute because 
of what happened to Deborah J. Eagen, an Air Force pediatric 
nurse, who in a letter to the military newspapers, Stars and 
Stripes, raised concerns about the vaccine side effects, and so 
forth. Is that also a figment of someone's imagination, sir?
    Mr. Cragin. Would you--I am going to ask General Weaver. I 
have his facts and figures in front of me, Mr. Chairman, but I 
would prefer to have you hear from General Weaver since I am 
looking at his attrition numbers for the last 5 years.
    General Weaver. Mr. Chairman, in the Air National Guard we 
have 3,920 pilots authorized. We are a third of the combat 
pilots of the U.S. Air Force, of which we have 3,735 assigned. 
Our attrition average is about approximately 330 to 350 pilots 
a year. Now when I say attrit, they will either join the Air 
Force Reserve because of a move or the location of their 
airline job or join another Reserve component or be retiring. 
This is the year that we have the best retention rate of all of 
our Air National Guard pilots in the previous 5 years.
    Our retention rate, and we are the busiest Reserve 
component force of all the Reserve component forces; in fact 75 
percent of the Reserve component forces called up for Kosovo 
were Air National Guard men and women; we have the best 
retention rate in the Air National Guard of all services, over 
90 percent. Talking personally, to all the ANG commanders to 
include the 122nd FW, there are challenges with explaining, and 
discussing, with all the members of their units on the anthrax 
issue. But when it really gets down to it, we have had 10,700 
people inoculated for anthrax in the Air National Guard with 
one known refusal documented.
    That is almost 10 percent of our force inoculated. Now 
there is a lot of anecdotal evidence out there about all of 
these pilots leaving the force when they are forced to do it. 
Well, we have already had 10,000 individuals voluntarily take 
the anthrax shot, some of which right now are in combat in 
Operation Northern Watch. So when I hear all of these other 
figures about these mass resignations and what not, they are 
simply just not there.
    The pilots are saying to the commanders we want the 
information, we want accurate information. We have an extremely 
aggressive information program on not only the threat but the 
efficacy of this anthrax vaccine. And for one who is on his 
fifth shot for anthrax with a 5\1/2\ month old daughter, I 
would give it to her if I could. That is how much I believe in 
that shot and the requirement for that.
    Mr. Burton. You know, my granddaughter had a hepatitis--
have you had a hepatitis B shot, General?
    General Weaver. Yes, I have. It is in my records.
    Mr. Burton. I am sure you have. She had a hepatitis B shot 
too. Six hours later she wasn't breathing. Are you sure you 
would want to give that to your daughter?
    General Weaver. Yes, I would. My daughter, my child.
    Mr. Burton. Well, you are a better man than I am. Let me 
ask you a couple questions about the testing of the anthrax 
virus. And I want to tell you I have received a lot of calls 
from people in the military myself in my office about the 
anthrax virus. Perhaps we are talking to different individuals. 
There is a misconnect here some place because you are out there 
talking to everybody and you are not getting any complaints. It 
sounds like everybody is happy. We had four people up here that 
aren't too happy.
    General Weaver. Sir, I am not saying they are not talking 
about it. They are talking about it. But we don't consider it a 
loss until the individual actually walks out the door.
    Mr. Burton. So if they are patriotic enough to take the 
shot even though they are very concerned about the risk then 
that doesn't count. Let me----
    Mr. Cragin. Mr. Chairman, it counts enough that we know we 
need to do a better job of informing and educating our people.
    Mr. Burton. I don't have a lot of time. Let me go on to 
some of the other things here. There has been a number of 
studies. Critics say that some of these studies are flawed 
noting that the Fort Detrick study did not even support a 
control group. Dr. Meryl Nass, a member of the Physicians for 
Social Responsibility [PSR], and a physician at Parkview 
Hospital in Brunswick, ME says she doubts the vaccine will 
work. While a controlled trial that would subject humans to 
inhalation of anthrax is unethical scientists have forced 
monkeys and guinea pigs to inhale anthrax with contradictory 
results.
    A Fort Detrick experiment using guinea pigs showed 9 of the 
27 strains tested killed 50 percent of the vaccinated guinea 
pigs. In a second study, 26 of 33 strains killed half of the 
animals. Such studies prompted the Senate Veterans Affairs 
Committee in 1995 to declare the vaccine should be considered 
investigational when used as a protection against biological 
warfare. Nass also points to a series of studies suggesting 
that reaction rates are much higher than the Pentagon has led 
troops to believe.
    A Korean study shows rates of all reactions from minor to 
severe were 40 percent in men and 70 percent in women. The 
ongoing Tripler Army Medical Center study of 600 service 
members resulted in 20 percent of vaccinated soldiers 
developing a systemic reaction after at least one of the first 
three injections. At Dover Air Force Base 20 to 25 pilots have 
been identified with symptoms similar to those present in 
people with the so-called Gulf war illness with 50 percent 
reduction in function. Are you familiar with those statistics?
    Mr. Cragin. Colonel Gerber I think can answer your 
question.
    Mr. Burton. OK, Colonel.
    Colonel Gerber. Yes, sir, I am familiar with them.
    Mr. Burton. Well, tell me about them. Are they accurate?
    Colonel Gerber. Well, yes, sir, they are.
    Mr. Burton. What I just read was accurate?
    Colonel Gerber. Well, some of it was, sir. I mean when you 
talked about the TAMC 600 study, the Hoffman study from Korea, 
that is correct. You have gotten all those reports off of our 
anthrax website.
    Mr. Burton. If the Korean study shows that rates of 
reactions from minor to severe were 40 percent in men and 70 
percent in women, doesn't that bother anybody?
    Colonel Gerber. Well, sir, these are all localized reaction 
from redness at the injectionsite which almost any immunization 
gives you to swelling of various degrees of centimeters from 
the point of injection. When we compared the rates of localized 
reaction at mild, moderate, severe and systemic rates the 
anthrax vaccination is very comparable to all of the other 15 
to 18 vaccines that our service members receive for worldwide 
deployment. In fact, as Mr. Shays knows, at our last committee 
hearing, the anthrax vaccine shows less of a side effect than a 
Lyme vaccine placebo. So, no, sir, these rates don't disturb us 
and you will find them prominently published in our literature 
and website.
    Mr. Burton. What about at Dover Air Force Base 20 to 25 
pilots have been identified with symptoms similar to those 
present in people with so-called Gulf war illness with 50 
percent reduction in function, is that accurate, 50 percent 
reduction in function?
    Colonel Gerber. No, I cannot verify that. I verify my 
adverse events. All of my adverse events worldwide are reported 
on a VAERS report and then submitted, 100 percent of them, to a 
national panel of non-military vaccine immunology experts, the 
same experts that evaluate----
    Mr. Burton. Let me tell you why I question the vaccine 
immunology experts. We had a scientist before my committee on 
the whole issue of vaccines and he told us about the DTP shot 
which every child is required to get and he says there is a 50 
percent adverse reaction rate with that shot. That shot has 
been given for the past 20 years to kids and many kids have 
become autistic it is believed because of that shot and yet 
they are still giving it today even though there is an 
alternative shot that can be given with a DPT shot.
    And so when these experts start talking about this 
sometimes I wonder if there is a vested interest and we are 
checking into that right now. But the fact is there was a 50 
percent adverse reaction rate with 50 percent reduction in 
function in these people and you are telling me you don't know 
anything about that.
    Colonel Gerber. Well, sir, as I was trying to tell you, we 
use these six panel members of national vaccine experts. Sir, 
that is the best we can do. They are the best experts in their 
field of immunology, vaccinology, neurology, internal medicine. 
It is about the best we can do. But every adverse event that is 
reported goes in front of this panel to assess where the event 
was actually a reaction caused by the vaccine or whether it was 
not caused by the vaccine.
    In the vast majority of cases all of these adverse events 
reported through the VAERS system are temporal. They go away 
with time and they have little or nothing to do with the 
vaccine. Now, when you talk about the 25 cases at Dover, I 
don't have the data here. I will be glad to report back to you 
for the record on those but I can tell you that every member in 
the service worldwide that identifies themselves with an 
adverse event reports it through VAERS is vigorously followed 
up through the medical system and the clinical systems that 
gives it to them.
    Mr. Burton. Did you hear the question I asked about the 
Fort Detrick experiment using guinea pigs showed 9 of 27 
strains tested killed 50 percent of the vaccinated guinea pigs, 
and in a second study 26 of the 33 strains tested killed half 
of the animals? Are you familiar with that?
    Colonel Dougherty. Mr. Chairman, I am aware of that study. 
Sir, I have read that study. I am not a vaccine expert but I 
have talked to vaccine experts about that study. I think there 
are some criticisms to be made of it. First of all, they don't 
follow the same protocol that we use. They don't challenge the 
experimental animal in the same way that humans get the 
disease. They didn't test for efficacy of the vaccine in the 
same way that we would with a better model for the human 
disease.
    And, last, guinea pigs don't get anthrax in the same way 
that humans do. I think that those results are interesting but 
don't provide any conclusion about the coverage that the 
current vaccine provides.
    Mr. Burton. I have two more questions, Mr. Chairman. How 
many strains of anthrax are there?
    Colonel Dougherty. Sir, I am aware of at least 31.
    Mr. Burton. Does this vaccine cover all of them?
    Colonel Dougherty. This vaccine was designed in such a way 
that it provokes a response in the human body to a component of 
the organism that is required to produce disease. That is the 
logic for this vaccine.
    Mr. Burton. So what you are saying is it will protect the 
person that gets the vaccination against all 31?
    Colonel Dougherty. We believe that every isolate that you 
can come up with currently that has the so-called protective 
antigen as a part of the germ, it will provoke an antibody 
response to it. The protective antigen that is a part of that 
vaccine is a part of every strain that causes disease. If you 
don't have that antigen disease doesn't occur.
    Mr. Burton. So you are saying it will protect you against 
every one of those strains?
    Colonel Dougherty. Sir, it----
    Mr. Burton. I just want a yes or no. Will it protect you 
against all 31 strains?
    Colonel Dougherty. We believe it does.
    Mr. Burton. You believe it does. Thank you. Now let me ask 
you this, Colonel. You have the Marberg virus which is an Ebola 
cousin, smallpox, biotoxins, resin I think is one of them, 
botulism, Japanese encephalitis, Venezuelan encephalitis and 
about 44 other viruses that could be used in biological 
warfare. Are we going to start inoculating people for every one 
of those? Because they can be used in a warlike situation, can 
they not?
    Colonel Dougherty. We are not at this time. We don't have 
that capability. But the anthrax----
    Mr. Burton. I know, but let us say that we inoculate the 
entire military for anthrax and let us say that your thesis is 
correct that it will work on all. I mean there are some 
scientists who don't agree with you. I think you know that. I 
think you know that.
    Colonel Dougherty. Yes, sir.
    Mr. Burton. But let us assume for the sake of argument that 
the anthrax vaccine is safe, which many people doubt, but let 
us assume it is safe and let us assume it will protect against 
every one of the strains of anthrax. If you were an enemy of 
the United States and you knew that everybody was inoculated 
against it, why wouldn't you use an Ebola virus because you 
know there is no protection for that and put that into some 
kind of a--into a military warlike missile and use it in a 
warlike situation.
    Colonel Dougherty. Mr. Chairman, the reason we think that 
anthrax is the correct focus right now is because it is so easy 
to make, it is simple to make, you can make a ton of it and you 
can attack somebody without a lot of----
    Mr. Burton. I understand, but you didn't answer my 
question. If an enemy of the United States knows that we are 
protected, our military, against anthrax, assuming it works 
like you say, why would they go ahead and produce a missile or 
a weapon that used anthrax when they could use the Ebola virus, 
smallpox or any of these other things?
    Colonel Dougherty. Sir, a lot of those other things that 
you are mentioning I think have some real technical problems in 
producing an effective biological warfare agent.
    Mr. Burton. Is it possible to do?
    Colonel Dougherty. Anthrax is not.
    Mr. Burton. Is it possible they could do it with the Ebola 
virus?
    Colonel Dougherty. It is theoretically possible.
    Mr. Burton. Thank you very much. Thank you, Mr. Chairman.
    Mr. Shays [presiding]. I am going to recognize Mr. Souder, 
but as you all were having this dialog I was trying to think of 
what it must have been like in the French Parliament when they 
were developing the Maginot line and you could make a strong 
case the Germans were going to go right in that direction. And 
the politician was probably saying, well, if I vote against 
this he is probably saying but maybe they can come around it 
but if I vote against it and I don't let it happen and they 
come straight on then it is my fault.
    So in one sense you could say, well, at least they have 
provided the French one line and they have less to defend but I 
feel like in a way we are almost dealing with a medical 
imaginal line. We have cut one option and they got 30 others. 
And it really does raise a question of whether the military has 
given the probabilities of every instance of biological agents.
    The question, and I believe your answer was sincere and I 
do think you are right, that anthrax is cheap. It can be 
produced by many and it is the logical first if you haven't 
defended but there are so many others. And so it is an 
interesting process that we are going through here. Mr. Souder.
    Mr. Souder. Once again I want to repeat I don't deny that 
you are in an extremely awkward position and the chairman has 
held many hearings on the terrorist threat and we did many in 
the previous 2 years in trying to sort this out and it is a 
difficult question. I want to grant that up front. But I want 
to make sure that you all search through because there is a 
tendency of anybody, including me, to dig in on a position. And 
your goal here isn't to defend anthrax vaccinations, your goal 
is to defend the Armed Forces of the United States.
    And when you get tough questions which may be adversarial 
sometimes I feel like we are more concerned about defending the 
position of the government currently than in trying to get 
behind this. And let me just express a frustration because I 
can see it from your perspective but I am still disappointed 
with this response. It sounds like based on what we are hearing 
from different units around the country that the reaction from 
the Defense Department is that we need to say our position 
louder and more often rather than trying to accommodate. The 
assumption is almost--it kind of sounds just listening here 
that, oh, well, they are all wrong. They just don't understand 
what the facts are.
    Now the truth is that I don't doubt that there are some 
questionable cases here that are in judgment areas, that there 
are people who may exaggerate, but it is impossible inside the 
proud discipline of the Armed Forces of the United States with 
personnel who are officers and heretofore have never spoken out 
against vaccinations who are seeing cases where there is at 
least tremendous confusion and fear about reporting.
    I have had a discussion in private with the Surgeon 
General's office in that part of the problem here, and there is 
an acknowledgment at least privately, there is a fear right now 
of reporting. So question No. 1 is part of the reason the 
general public is questioning some of the data is I am having 
doubts about some of the data because I know that not only in 
Fort Wayne but in other places there are individuals afraid to 
report to the military right now what they are personally 
feeling and what their private doctors are telling them versus 
the military.
    It is not because the military is directly threatening them 
because nobody really wants to do that right now because it is 
not politically correct for one thing. But at the same time it 
is a fact that is occurring because there are enough people 
that we are hearing from that are intimidated. They don't know 
even if there was no immediate retaliation there could be long-
term retaliation, viewed you are a problem person, you are 
unwilling to be a good soldier, and they don't want that in 
their record.
    It is a problematic question in analyzing the severity of 
the data right now because there is no question that any 
vaccination is going to have some reaction. The question comes 
is to what extent are things that heretofore wouldn't 
necessarily be attached to vaccinations that are occurring 
simultaneously with this event that often are written off that, 
oh, they couldn't come from this vaccination, therefore, are 
you digging in in every reported case and saying rather than 
assume this person isn't connected let us for a change assume 
that it is connected and we have an obligation to our men and 
women in the Armed Forces to go after every one of these cases 
and see if something is turning up that we don't know about.
    Mr. Cragin. Mr. Souder, let me try to respond because I 
think you make a phenomenally good point about the whole issue 
of how we inform and educate. I don't think anyone is digging 
in, sir. I think we are led by an individual, Secretary Cohen, 
who spent his entire public life either in this body or in the 
other body asking the hard questions and being concerned and 
understanding that in times gone by there were serious 
credibility issues.
    I was the chief judge at VA having to deal with a 
Department of Defense with men and women who--with men who 
asserted they have been mustard gas experiment individuals in 
World War II with a department that refused to acknowledge 
that. So Secretary Cohen that there could be credibility issues 
and he essentially set up a system to insure the efficacy and 
the safety of this vaccine and a tracking system that had 
never, ever been put in effect before.
    And we are learning the hard way about how to deal with 
some of those issues. We also have a discussion going on 
because you and I and the chairman have had this dialog about 
the threat in America and people are hearing about anthrax. And 
we have the big hoax in our country, you know, is drop anthrax. 
So we have this entire constellation of events occurring and we 
truly have not in my opinion--and as I say, I am out there 
every weekend listening and talking to these folks and they are 
very candid.
    We have not done a good job of explaining the threat. This 
threat is real to our force. We cannot evacuate our men and 
women from an Embassy because there is a perceived threat. We 
are lining them up to go to war. We have to make sure that to 
the best of our ability we are protecting them from a known 
threat that they may experience, a big distinction from the 
Department of State.
    Have we done the best job we can? No. Is the Secretary 
committed to doing it? Yes, he is. But he is convinced, as am 
I, that this threat is absolutely real, that we have got to 
protect this force and we have to explain to these men and 
women who think, who evaluate, and who articulate why we are 
doing it.
    Mr. Souder. I understand that point and I don't disagree 
with it. I have some questions on the threat thing but the 
first thing I want to say is when you--because you said that 
you were just in Sergeant Mangieri's----
    Mr. Cragin. I was up at Stewart, NY.
    Mr. Souder. And also you are headed with Captain Panzera's 
unit.
    Mr. Cragin. To Antarctica.
    Mr. Souder. Is it on purpose that you are going to those 
units because they have had dissention?
    Mr. Cragin. No, I travel, as I said, every week. Every 
weekend I am some place in the world. The 109th, I am going 
with them on their mission. They assumed the mission of 
supporting Antarctica from the U.S. Navy. It is a National 
Guard mission and I am going to go with them and observe it.
    Mr. Souder. When you and others from our leadership go into 
the bases, I would ask that part of the approach here isn't 
just to inform of the risk and about the vaccination but you 
indeed learn and try to be as open as possible in a non-
intimidating way. If you come in and we are here from 
Washington and we are here to tell you that, hey, this is safe, 
we have a great threat. I mean I understand your concern but 
partly when we are in a voluntary--this isn't a draft anymore.
    Mr. Cragin. You are absolutely right.
    Mr. Souder. And we are in a totally different type of a 
country that right now doesn't trust any of us. They don't 
trust Congress, they don't trust the military, they don't trust 
churches, they don't trust big business. And part of it is to 
listen and to say you are concerned here, what are you hearing? 
There isn't going to be any penalties here because all this is 
going on under the radar and you are not going to pick it up on 
your system because they are afraid and the more you come in 
trying to be helpful to tell them these things, in fact it 
backs them up wondering whether they are--because they don't 
feel somebody is hearing. That is partly my message.
    The second thing is that as we relate to the threat that I 
am intrigued by why you don't think Embassies in that area are 
in the same--our medical personnel who aren't under the Armed 
Forces in those regions required to take anthrax if they are 
from another part of the Federal Government. Is there a 
distinction between the military and all other branches of 
government in the high risk zones and if so, why?
    Mr. Cragin. Well, I think, one, there is a distinction 
between the military and all other individuals.
    Mr. Souder. In the high risk zone.
    Mr. Cragin. In the high threat areas, yes. I think also, I 
have at least been advised, that in many non-DOD agencies 
civilians are not required to take any immunizations. It is a 
voluntary condition. But as it relates to the military, we are 
there to perform a military mission. We can't leave if the 
troops are coming at us; if the opposition force is coming at 
us, we can't evacuate the Embassy. We have to stand and defend 
which means that we have to be assured that those troops to the 
greatest extent possible are protected from whatever nature the 
attack may present whether protection is provided by a flack 
jacket, a helmet or immunization.
    Mr. Souder. Of course we heard from Colonel Heemstra 
earlier that if this was a war situation we really don't have 
much disagreement. This is a random terrorist act that won't be 
anticipated and therefore there really isn't a question whether 
the domestic civilian personnel are going to be evacuated or 
the military personnel are going to be evacuated because they 
are often in the same building and at the same base and it is a 
surprise attack. But we need to look at those type of 
questions.
    I think we are different here than if we are in battle in 
the Gulf war and there has been a known threat of just being 
targeted or if there is a distinct threat at the Armed Forces 
in that area distinguished from other personnel but we have a 
little bit of a double standard. I think that is part of my 
concern. If I can get to another question here too and that is 
that there is a fundamental disagreement too over whether this 
actually addresses the threat. Even if we grant that there is a 
threat, and I think we have had this discussion before and 
whether we are more like monkeys or guinea pigs I am not an 
expert on----
    Mr. Cragin. I am buying into the monkeys.
    Mr. Souder. It seems to me because in this study from 
Little and Neutson on the different anthrax ranging from the 
most potent where there was a zero percent survival after the 
vaccination to the least potent where there was a near 100 
percent survival in guinea pigs. I understand monkey research 
is different. I find it a little disconcerting to depend on the 
monkey research when the guinea pig research is definitely 
particularly since we refer to everybody as guinea pigs all the 
time.
    In fact, many of the strains were below 50 percent 
survival. The balance that you all have to have and that we are 
really pushing to the next envelope with are the questions of 
three to five shots, the particular company involved, the 
particular dosages. Then the fundamental questions come as, 
well, how many strains does this protect from. I assume that 
anybody who really wants to target us can pick this off the 
Internet and figure out which strain this is best with and not 
best with.
    It is not that hard to find. There is a question of whether 
it works. We have questions on whether there are side effects 
that in the question of whether or not there is reenlistment 
rates is there. I think you will all agree that there probably 
isn't one single reason for most people not to reenlist.
    Mr. Cragin. I would agree.
    Mr. Souder. But we don't need to give them another. We are 
having enough problems in this country with reenlistment and 
this is adding to the pressures in the system. What we are 
hearing even in Sergeant Mangieri's--in his--where he clearly 
was interested in the subject, he found that many of them 
listed as one of the reasons they left. He didn't maintain that 
that was why everybody cited as their first. And they certainly 
are not necessarily going to tell the military if they believe 
that that is an official position.
    But I think it is without a doubt that merely the 
speculation just like in Fort Wayne, we don't know what the end 
result will be, the speculation isn't helping. It isn't helping 
in recruiting. It isn't helping in the enthusiasm of the 
services themselves that there is a--and fundamentally one 
other thing that has really troubled me is I don't believe this 
would go through FDA today.
    Mr. Cragin. I am sorry?
    Mr. Souder. I don't believe that you could clear this in a 
normal FDA process. When we have asked why you could go down 
from not five, to three shots, it means it would have to be 
reapplied and to some degree that is a length of time question 
but to some degree it raises whole questions about whether the 
FDA would actually clear this drug and that is really 
troublesome to me. Any comments?
    Mr. Cragin. A couple of comments. I want to get back to 
your first observation, the reason why we can't wait for the 
big balloon, to go up to use the characterization and then 
start inoculating this force. This isn't one shot. This is a 
series over time and the immunity develops over that period of 
time. And obviously that is one of the reasons why we are 
trying to work through this phase, as soon as possible to the 
extent we have the vaccine available.
    You may recall we had a policy, a 30-day policy, in which 
if we had men and women flying into the Gulf, for example, and 
they weren't going to stay for 30 days, we didn't inoculate 
them. And we looked at them and said that is absolutely crazy 
because they could have an attack perpetrated at any time they 
were in that high threat area. And so we have a zero day 
inoculation policy so that we can insure that anybody going 
into a high threat area is at least beginning to develop that 
immunity. This is an immunity that takes time. We have got to 
get this force into a posture where it is fully protected.
    On your FDA observation, I am not a scientist. I can't 
speculate. I know this has been approved by the FDA since 1970 
and the vaccine has been in use since 1970 in this country. 
Wool workers, veterinarians who work around large animals, 
things of that nature. I don't know what the answer is to a 
follow on as Sergeant Mangieri was talking about. All I know is 
that this is the best available vaccine that we have to protect 
this force today. It would be almost immoral to know of this 
threat and understand and appreciate this threat and have this 
vaccine that can protect our force and not utilize it.
    Mr. Souder. Not if you don't agree that it provides the 
protection which is--I agree with you if we knew it could. We 
would have a different----
    Mr. Cragin. Well, and we have a difference of opinion. Our 
scientists have assured the Secretary that it does in fact 
protect the force.
    Mr. Souder. One last question. In your own surveys it is 
clear that the symptoms of what I would term medium symptoms 
which may not be medium symptoms for a pilot going in a plane, 
which is another whole problem that we didn't get into here, 
but rather than just a rash but something that goes a--it is 
clear that even in your own data it is significantly more 
common among women. What is the department's official policy if 
there are in fact differences in the data with women and would 
you treat them differently and do you treat them differently 
because of questions that the data is at best unclear on 
pregnant or potentially pregnant women?
    Mr. Cragin. First off, with respect to pregnant women, we 
do not inoculate pregnant women because the FDA protocol, which 
is the basis of the FDA approval, dealt with 18 to 65 year old 
individuals that were not pregnant.
    Mr. Souder. Can I ask a clarification with that? What if 
somebody becomes--if they become pregnant during the process 
they don't get the five?
    Mr. Cragin. That is correct. They defer the inoculations 
which is generally the proposed course of conduct for any sort 
of vaccine inoculations with women who become pregnant.
    Mr. Souder. What about if they have an interest in--they 
want to start a family over a period of time, why would you 
start the process?
    Mr. Cragin. Well, because we don't know exactly when they 
intend to start this family over a period of time.
    Mr. Souder. They would falsify that?
    Mr. Cragin. No, I am not suggesting that they would falsify 
that. I think to the extent that they are not pregnant there is 
no medical evidence that suggests in any way that they 
shouldn't have the inoculation. They are part of the total 
force. If they are a deployable resource, we have to take 
advantage of that resource. Obviously, as women become pregnant 
we have rules with respect to how many weeks they can be 
pregnant and still be deployable.
    Mr. Souder. Because clearly the FDA had some concern about 
pregnancy or they wouldn't have had that.
    Mr. Cragin. I am not sure that I could draw that inference, 
Mr. Souder. I haven't recently looked at that but I just think 
there are studies where the basic premise for the approval of 
that vaccine did not include pregnant women but I will defer 
to----
    Colonel Dougherty. That is exactly correct. When you 
conduct research on a proposed vaccine you as a matter of 
policy do not test it on pregnant women so when it is approved 
that is a standard prohibition in the absence of any 
information. Now the anthrax vaccine is a category C along with 
about 10 other of our vaccines which means that it should be 
deferred unless there are compelling reasons to get it and that 
is pretty much across the board.
    Mr. Souder. Do you agree that your data suggests that there 
are more reported side effects with women than men?
    Colonel Doughery. I believe that is confined to local 
reactions. That absolutely is true.
    Colonel Gerber. And I understand, Mr. Souder, that that 
happens with many inoculations. This is not something that is 
anthrax vaccine specific that women have more local reactions 
to inoculations than their male counterparts.
    Mr. Souder. Do you believe that that is also true for more 
than just local reactions?
    Colonel Dougherty. Mr. Souder, I don't believe the data 
suggests that. I think it is for local reactions. By the way, 
this study that showed that was an uncontrolled survey. As you 
know, the answer you get depends upon the question you ask and 
this was a very open-ended kind of question.
    Mr. Souder. Because most of the original complaints we were 
hearing were also coming most predominantly from women with 
side effects as they came into the committee here too but as a 
matter of policy if in fact data showed there were more serious 
side effects with women you would alter it for women even if 
you didn't for men?
    Colonel Gerber. Alter what, sir?
    Mr. Souder. The mandatory vaccination. If data showed that 
there was a difference between men and women, would you treat 
them differently?
    Mr. Cragin. I am not sure that we would, sir. I think it 
would depend on if this was something that was very, very 
specific to the anthrax vaccine vis-a-vis all other 
vaccinations that women take. I mean I think there is something 
that may be gender specific to a higher rate of reactions but 
with the admonition that the good doctor gave you that this 
data to some extent is self determinative.
    Mr. Souder. I am really interested. It is interesting 
because I didn't--we debated it out but you also seemed to make 
a policy statement that even if there were differences you 
wouldn't take that into account. If women reacted differently 
to the vaccination and had more severe side effects would you 
make a difference between men and women in the military?
    Colonel Dougherty. If the side effects that you discover 
are those that are potentially harmful, I think the argument 
you are making is a good one, but if they persist in being 
transient, local effects that disappear within a day or two 
then I would not say that is a strong argument to make a 
difference.
    Mr. Souder. So it is a little pain but not a lot.
    Colonel Dougherty. Not pain but disability, loss of 
function, those kinds of things.
    Mr. Souder. And those are some other concerns. I understand 
the distinction but I am not sure I agree with the distinction 
but I understand your distinction and if it reached a level of 
severity then you would.
    Colonel Dougherty. You know, in the same studies that were 
done the people who reported these reactions in most cases felt 
they were of a nature they could ignore them.
    Colonel Gerber. That is correct. A majority were self-
resolved. They weren't hospitalized. They did not lose duty 
over 24 hours. And I think most significantly as you all know, 
the 603 people that participated in that Tripler Army Medical 
Center study were all medics, physicians, nurses, medics, which 
have a tendency when we gave them the survey we asked them to 
report every little side effect that happened after that 
immunization, so we in fact over-reported, so there is some 
test bias involved, in that in getting them to actively 
participate and tell us every single thing they were feeling.
    Mr. Souder. I understand what you are saying. I also think 
that there are people who wouldn't have a medical background 
who might report symptoms that had nothing to do with that. I 
am not sure which way the best bias goes. Usually you don't say 
when you are testing for health things that if the people 
actually know about medicine they are less of a good sample. 
That is kind of an odd--I mean I understand what you are 
saying. They might be more hypersensitive. On the other hand, 
somebody who isn't of medical background might report really 
random things whereas these people presumably would know a 
little bit what is normal and what isn't normal and what is 
something that they----
    Colonel Dougherty. Sir, it is my understanding that they 
went out of their way to emphasize to them that they wanted 
them irrespective of what they thought might be going on, 
trivial or not, to report it so----
    Mr. Souder. I think you have to take that with a grain of 
salt.
    Mr. Cragin. You are concerned about the self-diagnostic 
expertise of this group, and I think the Colonel is suggesting 
that they said disregard your ability to self-diagnose and 
report everything you are feeling.
    Mr. Shays. Just to make sure we don't have to repeat past 
hearings, I want to put on the record now, we don't need to 
wait for you to get back to us on the memorandum of decision 
which was Mr. Togo West and the Secretary. I am going to read 
two paragraphs. It is clear what we basically indemnified for. 
In the third paragraph of the agreement it said the obligation 
assumed by MBPI under this contract involves unusual hazardous 
risk associated with potentially severe adverse reactions and 
the potential lack of efficacy of the AVA.
    And then it goes on to say these concerns stem from, A, the 
limited use of the vaccine to date, i.e. tests prior to the 
approval of the vaccine by the Food and Drug Administration on 
two small a scale to permit accurate assessment of types and 
severity of adverse reactions--only widespread use can provide 
this assessment--and, B, insufficient experience in mass 
immunization programs to truly evaluate the efficacy of the 
vaccine.
    Moreover, there is no way to project whether the pathogen 
against which the vaccine may be used will be sufficiently 
similar to the pathogen used in tests to insure vaccine 
efficacy. I find that performance of this contract will subject 
MBPI to certain unusual hazardous risks defined in attachment 
A. And attachment A is the risks of adverse reactions or the 
failure to confer immunity against anthrax from the 
administration to any person of a vaccine manufactured or 
delivered under this contract.
    The bottom line is they were given indemnity for 
everything. And I realize in some cases this is boilerplate but 
in other cases it is not. We knew that anthrax was used for a 
few and not many and now you are going to many. That was a 
decision you all made. And, Major Weaver, I just want to say, 
and I don't want to overblow this because I think you are just 
trying to tell me how strongly you have confidence so you have 
made your point.
    But you would be an absolute fool to give any vaccine to a 
child who hasn't--that it hasn't been tested on children in 
this way in my judgment. And in my capacity as chairman of the 
Human Resource Committee which oversaw HHS, we had countless 
hearings on this type of area and the medicines you apply to 
children are different and the vaccines are as well. And I just 
have to say that I think your major point is that you have 
total faith and I accept that and I am impressed by it but I am 
just--I had to react to that you would even let your child have 
it or your children's children.
    I am not at all comfortable with the recordkeeping, and I 
am not at all comfortable with your explanation, Mr. Cragin, 
that there is a delay. And I am not at all comfortable with the 
logic that says that you can deploy troops after they have only 
had three. Under what basis in the testing of this drug do you 
have any right to say that someone would be protected after 
three shots?
    Mr. Cragin. Let me respond first and then I will let the 
doctors respond. It is my understanding, Mr. Chairman, that 
with respect to the FDA protocol that there is the progressive 
development of immunity over the course of the protocol as a 
result of essentially jarring your immune system with each of 
these inoculations. And the opinion of the experts is that a 
reasonably high level of immunity is achieved at the time that 
three shots have been acquired.
    Let me also say that if we were to have a cataclysmic event 
today which required us to call up our force and send it in 
harm's way into one of these high threat areas, we would be 
sending most of our force in harm's way without any of this 
immunity developed. So it isn't a question of a confidence 
level of saying three shots and we will send the force in 
harm's way. We have been looking at the level of protection 
that is developed with the inoculation of the first three shots 
in the series because that is 1, 14, and 28 days which would 
mean that you could deploy a force with some protection within 
30 days of the commencement of the inoculation process.
    Mr. Shays. Can you define been looking?
    Mr. Cragin. I am sorry?
    Mr. Shays. Been looking, you said we have been looking at. 
I don't know what that means. It doesn't have any medical 
basis.
    Mr. Cragin. I am not a physician so that is probably why I 
used that term.
    Mr. Shays. You are saying we have been looking at. What I 
asked you was under what basis. This is a vaccine that is 
approved for six shots, not three.
    Mr. Cragin. That is correct.
    Mr. Shays. That is what the testing was. Now maybe if we 
developed a better vaccine, we would be able to say that three 
was enough because we would have tested it but we haven't 
tested for three, we tested for six and that is what you are 
approved for. You are not approved for three.
    Mr. Cragin. That is absolutely correct. We are not approved 
for three.
    Mr. Shays. So under what basis then would you deploy after 
three, what is the logic?
    Mr. Cragin. The logic of deploying after three would be if 
they were coming over the wall at us. We essentially inoculate 
this force. We can't bring the force back home.
    Mr. Shays. I don't want to trick you here. You are not 
using this policy if they are coming over the wall at us. You 
are deploying after three, is that not true?
    Mr. Cragin. Mr. Chairman, we are deploying the personnel 
into high threat areas. With the immunization process that has 
been in effect, as I mentioned to Mr. Souder----
    Mr. Shays. That doesn't make sense to me.
    Mr. Cragin. We now require that before anyone goes in the 
theater they begin the immunization process. There was a point 
prior to this policy change when we did not require members of 
the Guard and Reserve who were not going to be in theater more 
than 30 days to have any inoculations prior to entering the 
theater. We will deploy people who have begun their 
inoculations series and they will continue to complete their 
inoculation series in theater.
    But, Mr. Chairman, we are deploying members of the Guard 
and Reserve in constant rotations in Southwest Asia and in 
Turkey, and we are inoculating this force in accordance with 
the protocol which is set forth by the Food and Drug 
Administration.
    Mr. Shays. I think I would have answered that different and 
I think that it would have been a more honest answer, you are 
not doing it based on the protocol. The protocol is six, not 
three.
    Mr. Cragin. Mr. Chairman, we are doing it on the basis of 
the protocol. We are giving shot one on day 1, we are giving 
shot two on day 14, we are giving shot three on day 28, and we 
are moving forward with the protocol.
    Mr. Shays. No, it is six. It is six.
    Mr. Cragin. We move forward with the protocol of the six 
shots.
    Mr. Shays. In your testimony it says although DEERS 
currently and consistently indicates sufficient shortfalls in 
our efforts to meet vaccination time tables, closer analysis of 
overdue shot tracking data reveals a more complex picture. The 
Reserve components actually fall within the 70 to 90 percent 
range with regard to shots being administered within 30 days of 
the due date. Where do the 30 days come from? I am taking your 
own testimony.
    Mr. Cragin. I understand it. I know what I said. If 
somebody is required to have shot two which is required to be 
14 days after shot one, we consider compliance for purposes of 
the DEERS reporting to be any time within a 30-day period 
following day 14.
    Mr. Shays. Does FDA? I know what you consider. I want to 
know if FDA considers it.
    Mr. Cragin. FDA's protocol is on day 1, day 14, day 28, 6 
months, 12 months, 18 months.
    Mr. Shays. And you have been licensed to do it, to 
administer this, based on the FDA's protocol.
    Mr. Cragin. That is right.
    Mr. Shays. So are you abiding by the FDA protocol?
    Mr. Cragin. We are abiding by the FDA protocol to the 
greatest extent possible in inoculating this force. If we have 
someone who does not come in, remember these are people who are 
drilling reservists, one, we have to reschedule their drills 
because if you get shot one on day 1 these men and women 
generally will not be back until day 30 or day 31, so we have 
to reschedule their drills. If they are away going to a school, 
if they have an excused absence from a drill, they are not 
available.
    We can encourage them to go to a medical treatment facility 
or some other location where we can provide the shot but in 
many instances that does not occur. That is why I mentioned at 
the outset in my opening remarks----
    Mr. Shays. So the answer is you aren't complying but you 
are trying to comply and you are doing your God best effort to 
do it.
    Mr. Cragin. Mr. Shays, I am confident, sir, that you can 
find an example in which a member of the Reserve components did 
not get the shots based on----
    Mr. Shays. No, don't play games. Come on. I have been 
really fair with you all and you be fair with me. We are not 
talking about one or two people. I mean if we start this then 
this is going to be an all-out effort to just bring everybody 
in here and illustrate how absurd that is. You have many, many 
people that aren't coming under this. See, the problem is you 
can't have it both ways. You can't tell me your data is 
accurate and then tell me that what the data tells us is wrong.
    Let me ask you this. Are you tracking PA antibody tiers. 
These are the levels of vaccinated personnel. In other words, 
are you trying to understand how robust their antibodies are?
    Colonel Gerber. No, sir, we are not.
    Mr. Shays. Why not?
    Colonel Gerber. We are not resourced. We have not been 
required to do it but as you know there is significant human 
data to suggest that the protective antigen antibodies are best 
respondent after the first three doses. In fact, the data 
suggests that most people gain a 98 to 100 percent antibody or 
immune response after two doses which also as you know is why 
we are continuing to study or work with the FDA to reduce the 
amount of doses from six to five or even to four and change the 
route of administration to reduce the amount of local side 
effects.
    Mr. Shays. No, I do remember that hearing and I think if I 
were in your position I would logically conclude that you might 
need just two or three but the problem is that is not what you 
and I are allowed to do because the test requires something 
else. So it strikes me that the military basically decides to 
play by its own rules.
    Colonel Gerber. Sir----
    Mr. Shays. And I will just make this point and then you 
will get a chance to respond. And if I didn't have the history 
of everything that has preceded you all before you had 
opportunities to make these decisions going back to the misuse 
of our military from way back to Agent Orange to Gulf war 
illnesses and the fact that we provided PB shots and didn't 
keep records and all of that, I might feel a little more 
comfortable but I have no comfort level.
    Colonel Gerber. Well, sir, I can't help you with that 
discomfort. All I can tell you is that our best scientists that 
work in laboratories in immunology and vaccinology have 
demonstrated these antibody responses 98 to 100 percent after 
two shots. We are sticking with the six-shot regimen until the 
FDA approves our reduced shot and route regimen.
    Mr. Shays. And we are conducting tests to give them a basis 
to make that?
    Colonel Gerber. Affirmative.
    Mr. Shays. What are we doing?
    Colonel Gerber. What are we doing?
    Mr. Shays. Yes. What tests are we doing?
    Colonel Gerber. We are--as you know, the Pittman study in 
1996 and 1997 submitted to the FDA----
    Mr. Shays. So you are doing it based on that?
    Colonel Gerber. We are continuing that, sir. The FDA, as 
you know, has given us encouraging responses based on the 
preliminary data. The FDA has asked for more test subjects in 
the data and we are going to pursue that. We think within a 
year we will get FDA approval for reduced dose based on the 
science.
    Mr. Shays. I would like to ask as it relates to a more 
localized issue, the Connecticut Air National Guard. The DOD 
statements says although DEERS data shows 90 percent of the 
unit overdue for a scheduled inoculation ``only 5 percent of 
the state's Air Guard personnel are actually overdue for shots. 
The discrepancy is attributed primarily to data recording and 
transmission problems.'' When did the members of the 
Connecticut Air National Guard receive their fourth anthrax 
inoculation?
    Colonel Dougherty. Mr. Shays, those guardsmen were due for 
their fourth shot on May 5th.
    Mr. Shays. They were due for it and when did they get it?
    Colonel Dougherty. On May 5th in large part.
    Mr. Shays. You are saying--well, large part, I want you to 
define large part because I have a problem with the whole issue 
of substantial that you all use as to when this becomes a 
problem so define in large part.
    Colonel Dougherty. Currently, the DEERS reporting system 
shows 65 people overdue.
    Mr. Shays. I don't mind you looking at data if you like, 
and if you want to take a second because I do want this to be 
as accurate--I don't want you to just do it on memory.
    Colonel Dougherty. Until recently a great number of the 
group of people in the program in Connecticut were overdue in 
DEERS.
    Mr. Shays. There were 65 that were supposed to have their 
first shot on May 5?
    Colonel Dougherty. I am sorry, it was--I am trying to 
remember--my memory here, but there were 6 people that are 
overdue, currently overdue, in DEERS for the third shot and 57 
currently overdue for the fourth shot. Now that represents what 
is in DEERS but the unit has forwarded to us their service 
tracking program data and when you look at that, which is the 
accurate point of service tool on who has actually gotten the 
shot it shows that only about 12 people are currently overdue.
    The issue is one of the data that they put in at the time 
the shot is given----
    Mr. Shays. I just want to pin you down a little bit more. 
Do we have those records?
    General Weaver. Yes, sir, we do.
    Mr. Shays. In other words, we haven't really done that many 
Air National Guard and Reserve units. We got a long way to go. 
So why don't you pull out your data and tell me what you got.
    General Weaver. Yes, sir. We have 97 percent are on track 
in the 103rd FW, and this is right from Colonel Burns the 
commander of the 103FW. That is 401 people, 401 people; 14 are 
overdue.
    Mr. Shays. On track based on FDA on track or your on track?
    General Weaver. Based on the shot regimen.
    Mr. Shays. Of whom?
    General Weaver. FDA.
    Colonel Dougherty. This is based on the military 
immunization tracking system data files of the unit.
    Mr. Shays. I understand, and I really don't--I am not 
looking for a quick answer. I am looking for an accurate 
answer.
    General Weaver. Yes, sir.
    Mr. Shays. You have the regiment of six shots. They had 
their shots May 5. How many did not get their shots May 5?
    General Weaver. We will have to pull that up, sir. I can 
only give you current right now today and this is from the wing 
commander.
    Mr. Shays. OK, but the problem is you all allow little lag 
times so that if it is not May 5 you still think you are on 
track. And what you would testify, how many people are in the 
Air National Guard in Connecticut, Connecticut Air National 
Guard, how many people are we talking about, personnel?
    General Weaver. In the 103d I would say approximately about 
950. I would have to get that exact figure for you, sir.
    Mr. Shays. And how many are required to take this shot?
    General Weaver. Everyone will eventually be required to 
take it.
    Mr. Shays. And it is your testimony that how many of the 
950 are up to date?
    Colonel Weaver. 401 people, 97 percent.
    Mr. Shays. 401?
    Colonel Weaver. Yes, sir.
    Mr. Cragin. He is talking about the deployers.
    Colonel Weaver. The deployers, sir. I am sorry.
    Mr. Shays. The deployers. How many of the deployers are 
required to have the shot, 401?
    Colonel Weaver. 424 it looks like to me. Mr. Shays, I would 
be happy to try to do this and get it to you for the record.
    Mr. Shays. The problem is that sometimes when I get it 
later I wish I then had the opportunity to pursue the question. 
So we have 424 and of that you think 401 are on track.
    General Weaver. Yes, sir.
    Mr. Shays. And on track means complied with. Of the 401 how 
many were late and how late were they?
    General Weaver. I would have to get that for you, sir.
    Mr. Shays. Do you know if being on track means in the last 
week or two they got caught up?
    General Weaver. This information is current as of yesterday 
from the wing commander.
    Mr. Shays. Well, what I am going to do is have you just 
submit it for the record and then we will have to go from 
there.
    General Weaver. Yes, sir.
    Mr. Shays. Because you haven't really told me an answer. 
And I know you have done your best but your best isn't very 
helpful because May was May and we are in October.
    Mr. Cragin. Mr. Shays, we will get you some time lines on 
it, sir, so that you can see when people did actually get the 
shots that were required in the regimen.
    Mr. Shays. I am almost done here. If DOD plans to measure 
AVIP impact on readiness and/or retention, which I expect you 
are, what are the elements that will insure consistent, 
meaningful measures across the services? First off, I make an 
assumption that you are intending to measure AVIP impact on 
readiness or retention. Should I make that assumption?
    Mr. Cragin. I think there certainly is desire on the part 
of the folks who deal with the issue of measuring readiness on 
every given day to measure joint medical readiness as it 
relates to anthrax inoculations because obviously that would be 
something that would tell us how much of this force that we 
have inoculated has reached the highest level of immunity if we 
were required to deploy it. So I think it stands to reason that 
medical readiness from that perspective would be looked at, 
yes, sir.
    Mr. Shays. And also retention.
    Mr. Cragin. We would look at retention and a number of 
issues. Readiness certainly is affected by retention. There is 
no question about that.
    Mr. Shays. I guess what I want to know is how are you going 
to----
    Mr. Souder. One question would be is when somebody doesn't 
reenlist do you specifically ask a question whether anthrax 
vaccination was part of that?
    Mr. Cragin. I don't know that the question is specifically 
asked that way. I know there is an exit interview and we try to 
ascertain the reasons. Each of the services have different exit 
interview processes. I know the Marine Corps Reserve, for 
example, has a highly computerized out-processing program where 
you are asked to articulate all of the reasons so that we can 
really get a handle on is it this, is it employer difficulties, 
is it family issues, is it work schedules, you name it. We do 
look at all of that.
    Mr. Souder. So earlier, for example, when you referred to 
the one unit where you said it was a lot of the equipment which 
I would agree with is a big problem in Reserve and Guard units, 
was that a question that was solicited or volunteered?
    Mr. Cragin. I talked to the commander with respect to that 
one but when I was up at Stewart I was talking to some of the 
men in the shops and they were complaining about the T tails on 
their C-5s and the fact they had 13 C-5 aircraft and only I 
think four or five were mission capable at the time. And that 
was volunteered and it was a frustration to them to not really 
have the aircraft to fly. But General Weaver I am sure can 
respond with much more specificity as it relates to the Air 
Guard side of the house.
    General Weaver. As our Air Guard members depart for 
whatever reason, retirement, and so on, they go through the 
exit interview. Anthrax is not specifically pointed out as one 
issue. If they would like to add to that, that is fine.
    Mr. Souder. Is equipment?
    General Weaver. Well, the stress on the family and the 
employers are the two biggest reasons right now. The stress on 
the family and the fact of----
    Mr. Cragin. He is asking you do you inquire about 
equipment?
    Mr. Souder. Do you have--what I thought the term was I 
asked you, do you have specific questions in effect as opposed 
to open end where we could actually measure----
    General Weaver. Each commander has a command program as far 
as exit interviews and what they ask.
    Mr. Shays. We are being very candid with each other. When 
you say if we request to have the information, that is fine. 
That is a very telling statement though, because I asked a 
question earlier of the other panel, where I thought the answer 
would be that they could name me names, but admittedly, and not 
names the names, and I know can be simply left, now if I am 
practicing as an attorney which I am not and I want a 
particular answer, now if I am practicing as an attorney which 
I am not and I want a particular answer I don't asked the 
question unless I know the answer. I am almost--I had this 
concern that you don't want to ask this question because you 
may not like the answer. It is a no-brainer for me, General, 
that you should ask this question because there are sincere 
allegations that this is true and therefore you could nail it 
down and say no, we asked everyone and this is the answer, and 
you would have the answer. And you may not like it or I may not 
like it but either way we will know the truth.
    General Weaver. You are right. We wouldn't like the answer 
if it was anthrax but what we are seeing with people leaving 
and voicing their frustration it is not with an immunization, 
it is with the things that are very important to them as far as 
their family and their employer.
    Mr. Shays. That doesn't really cut it with me, General.
    Mr. Souder. May I make a comment on that? I am sorry to 
interrupt. I talked to a young pilot who--my bet is he is going 
to wind up staying in but he had a long conversation with me. 
And he has only been married a couple of years. They have one 
child. They are hoping to expand their family. He said I am 
getting a lot of these vaccinations. There are a lot of 
questions about it.
    If he leaves, he will say it was employment because there 
are plenty of other options but this is an additional thing on 
top of it that he was wrestling with this decision do I want to 
stay in, do I want to go out, I have these job opportunities. I 
am 28. What if they find out 10 years from now like what 
happened in the Gulf and so on because they tell us one thing 
now but did they really know later. It will come in as 
employment but if you ask a specific question are there several 
things here, I think it would show up.
    Mr. Cragin. I think, as evidence by your previous panel our 
guardsmen and our Guard family are pretty vocal. We never deter 
them from that at all and they will speak their mind. I have no 
doubt of that.
    Mr. Shays. I think the pilots in particular because they 
are so ticked off that they have this policy that potentially 
could jeopardize them in their other profession which is the 
profession they are ultimately going to have and that is being 
pilots. Are you aware of any service members that have been 
told they could not list anthrax as the reason for transfer, 
resignation, or are you aware of any allegations that this has 
happened?
    Mr. Cragin. I am not, Mr. Chairman, and I have specifically 
asked that question because I was aware of the allegation and I 
am told that there is a form in the Air Force called the 1288, 
which is an exit form. I asked the question has anybody given 
instructions that you cannot on this 1288 say that you are 
leaving because of anthrax and I have never been told that. Now 
maybe Mr. Souder's thesis is right and Chairman Burton's that 
nobody is ever going to tell me that but I asked that question 
of the troops as well. And as General Weaver knows since he 
gets reports of some of my visits to his commands they are very 
candid with me.
    Mr. Shays. And so it would not be approved policy to have 
that be a factor?
    Mr. Cragin. Absolutely not.
    Mr. Shays. Now what I thought we had an understanding with 
was that I appreciate you checking this out but you would make 
it clear proactively that this could not be an issue whether it 
was in the Reserve or National Guard or any other force.
    Mr. Cragin. And I have certainly made it clear in my 
meetings with the chiefs of the Reserve components and they 
have assured me that they and their commanders are not in any 
way, shape or form saying don't you dare put the reason you are 
leaving as anthrax.
    Mr. Shays. Now let me say that I am asking these questions 
under oath, as you know, and I need to ask--this is the problem 
that I sometimes find in committees. I just ask the wrong 
person. The person who could answer that in a different way I 
didn't ask so I just need to--I need to say that when I am 
asking Mr. Cragin this I am making an assumption that I will 
ask all four of you. Are you aware of any service members who 
have been told they could not list anthrax as the reason for a 
transfer or resignation?
    General Weaver. I am not aware of that at all.
    Colonel Gerber. No, sir. I have heard that anecdotally at 
your last session.
    Mr. Shays. OK, but you are not aware of it?
    Colonel Gerber. No, sir.
    Mr. Shays. Are you aware of any service members who have 
been told they would be subject to discipline proceedings if 
they listed anthrax vaccine as their reason for transfer or 
resignation? Each of you.
    Colonel Gerber. I only hear it anecdotally on the Internet.
    Mr. Cragin. If someone is going to resign, Mr. Shays, they 
are certainly not going to be subject to any penalties. That is 
one of the points of the Guard and the Reserve.
    Mr. Shays. This isn't the question though. I asked this 
question. Are you aware of any service members who have been 
told they would be subject to disciplinary proceedings if they 
listed the anthrax vaccine as their reason for transfer or 
resignation?
    Mr. Cragin. No, sir.
    General Weaver. No, sir.
    Colonel Dougherty. No, sir.
    Mr. Shays. Are you aware of resignation or transfer forms 
being held by unit commanders for weeks or months so they are 
not reflected in periodic manpower reports?
    Colonel Gerber. Negative, sir.
    Mr. Cragin. Being a good trial lawyer, sir, I should object 
to the form of the question. It is compound. I think there are 
delays in the processing of resignations and retirement 
requests. I do not believe and to my knowledge I have not heard 
of anyone being delayed so that somebody can game the system of 
statistics.
    Mr. Shays. As it relates to anthrax.
    Mr. Cragin. That is right.
    General Weaver. No, sir.
    Colonel Dougherty. No, sir.
    Mr. Shays. Are you aware of commanders demanding letters or 
statements of intent from unit members regarding whether or not 
they will take the shots?
    Colonel Gerber. Negative, sir.
    Mr. Cragin. No. I think that General Weaver has made the 
observation that the Guard is a large family and it truly is, 
and these are men and women--I think a couple of your previous 
panel members made the same observation. They have grown up 
together. They have been in the same unit from the time they 
were O1's or E1's to E9's and O10's or 08's or 06's or 
whatever. And they share opinions. There is no question about 
that. But as far as somebody asking for some sort of documented 
expression, I am not aware of that, Mr. Chairman.
    General Weaver. Sir, some units are taking surveys in your 
interest, our interest to look at how massive the problem might 
be in the unit, where the education needs to be focused but 
that is all that is being done.
    Colonel Dougherty. No, sir.
    Mr. Shays. OK. Let me just end my participation and the 
hearing by saying that in response to you, General Weaver, when 
you said that is fine. I would make a request that any person 
who leaves the Reserve or National Guard be specifically asked 
if anthrax vaccine was a factor in their decision and to what 
extent it was. And I will followup and see if that is done.
    General Weaver. Yes, sir, I will do that.
    Mr. Shays. I think it would make a lot of sense and we will 
find out the answer, whatever it is, and it will be an 
important answer to have. I thank you all. I would allow you to 
and welcome you making any closing comments that you would like 
to make.
    Mr. Cragin. Mr. Shays, I think in conclusion let me just 
say that you were kind and gracious the last time I appeared 
before you to let me leave at quarter of 12 so I could catch a 
flight. I think paybacks are hell but I think we have 
accomplished it today, sir.
    Mr. Shays. So you have been nice to me because--and I 
thought you were just a nice guy.
    Mr. Cragin. Thank you, Mr. Chairman.
    Mr. Shays. Thank you. Colonel, any comments you would like 
to make?
    Colonel Gerber. Well, this is my fifth and hopefully last 
hearing with you, sir. It has been fun, all five. I just want 
to take a couple minutes because I came prepared to talk about 
the good news stories that DOD is doing with the anthrax 
tracking. You know, I have been with this program for 22 months 
spending 14 to 16 hours a day working it and I think there is a 
good news story to tell. You know, at this date, as of 
yesterday evening, the Department of Defense had immunized over 
340,000 service members active and Reserve component 
representing over 1.12 million immunizations. I think the 
phenomenal story I would like----
    Mr. Shays. That is about an average of two per personnel, 
about two shots per personnel. Let us say between two and 
three. OK.
    Colonel Gerber. I will bring my calculator next time.
    Mr. Shays. No, I am not being funny. I don't want to give 
the impression that you completed the six with them.
    Colonel Gerber. No, sir. I never meant to give the 
impression that we completed six shots, but since we started 
shot one through shot six 340,000 service members. I can tell 
you in our service immunization tracking systems, which 
ultimately get dropped in the DEERS data base as the final data 
repository, I can tell you today every single record or service 
member active and Reserve where those 1.12 million 
immunizations have gone.
    And since everybody has had a chance to share their 
stories, I would just like to share my anecdotal story. I had 
the privilege about 5 weeks ago to travel to Fort Benning, GA 
and make four parachute operations with my son. I also had the 
chance to interview 16 pilots and crew chiefs in four Reserve 
component wings or squadrons and interview 300 soldiers who 
were conducting that parachute operation.
    Sir, frankly, in my circles there are no issues. Now, 
unless the pilots were afraid to talk to a colonel who was in 
battle dress with a parachute, they all said, ``no,'' there is 
no problem. ``I had a welt.'' ``I had a knot.'' ``Sir, there is 
no issue in our unit.'' So in the 300 soldiers that I talked to 
in over 36 active and Reserve component units it is, ``hey, 
sir, I don't have a problem.'' ``I have heard some stuff but we 
are going to take it.'' That is the other side of my story.
    Mr. Shays. I totally accept that you would not be a hard 
person to converse with. You come across as someone you could 
say whatever who needed to. I just need to know were they 
pilots?
    Colonel Gerber. Yes, sir. The 16 members of those four 
Reserve component crews. Obviously there was the pilot, the co-
pilot and then the back-end part of the crew.
    Mr. Shays. And were they active or Reserve?
    Colonel Gerber. They were all four Reserve C-130, C-141 
squadrons.
    Mr. Shays. Thank you. Anything else you want to say?
    Colonel Gerber. No, sir. Thanks for the opportunity to let 
me say what I had to say.
    Mr. Shays. Thank you. It won't be the last hearing though 
because we will do followup even after our reports and I think 
that is important to say for the record. Mr. Cragin, Mr. 
Weaver, Colonel.
    General Weaver. Sir, as a commander that sent his kids off 
to war twice and as a director who sent his kids off to war on 
four different occasions as we are still engaged in Operation 
Northern Watch, there is no more sobering responsibility than 
to send our kids off to war and we certainly have to make sure 
they are well protected against everything.
    Mr. Shays. Thank you, sir. Thank you, General. Colonel.
    Colonel Dougherty. Mr. Shays, as a practicing physician, it 
is my firm belief that this vaccine is a safe and effective way 
to protect against this threat. And the kind of thing that 
keeps me up at night is that we won't get around to getting 
everyone what they need to have to form their duty for their 
service.
    Mr. Shays. Thank you. I am convinced that all four of you 
believe strongly in this program and that is helpful to know. 
Thank you so much. This hearing is adjourned.
    [Whereupon, at 2:30 p.m., the subcommittee was adjourned.]

                                   - 

</pre></body></html>
